<html>
<title> - PENDING NOMINATIONS OF BROUILLETTE, CHATTERJEE AND POWELSON</title>
<body><pre>[Senate Hearing 115-256]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-256
 
      PENDING NOMINATIONS OF BROUILLETTE, CHATTERJEE AND POWELSON

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

   THE NOMINATIONS OF THE HONORABLE DAN R. BROUILLETTE TO BE DEPUTY 
  SECRETARY OF ENERGY AND NEIL CHATTERJEE AND THE HONORABLE ROBERT F. 
   POWELSON TO BE MEMBERS OF THE FEDERAL ENERGY REGULATORY COMMISSION

                               __________

                              MAY 25, 2017

                               __________
                               
                               
                               
                               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              



                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov
        
        
        
 
                U.S. GOVERNMENT PUBLISHING OFFICE
                   
 16-074                 WASHINGTON : 2018             
 
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
CORY GARDNER, Colorado               JOE MANCHIN III, West Virginia
LAMAR ALEXANDER, Tennessee           MARTIN HEINRICH, New Mexico
JOHN HOEVEN, North Dakota            MAZIE K. HIRONO, Hawaii
BILL CASSIDY, Louisiana              ANGUS S. KING, JR., Maine
ROB PORTMAN, Ohio                    TAMMY DUCKWORTH, Illinois
LUTHER STRANGE, Alabama              CATHERINE CORTEZ MASTO, Nevada
                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                 Kellie Donnelly, Deputy Chief Counsel
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
                
                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman and a U.S. Senator from Alaska....     1
Toomey, Hon. Patrick J., a U.S. Senator from Pennsylvania........     5
McConnell, Hon. Mitch, a U.S. Senator from Kentucky..............     6
Franken, Hon. Al, a U.S. Senator from Minnesota..................     9
Cornyn, Hon. John, a U.S. Senator from Texas.....................    11

                               WITNESSES

Brouillette, Hon. Dan R., nominated to be Deputy Secretary of 
  Energy.........................................................    13
Chatterjee, Neil, nominated to be a Member of the Federal Energy 
  Regulatory Commission..........................................    18
Powelson, Hon. Robert F., nominated to be a Member of the Federal 
  Energy Regulatory Commission...................................    22

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Advanced Energy Economy:
    Statement for the Record.....................................   204
Air Conditioning, Heating and Refrigeration Institute, et al.:
    Letter for the Record........................................   207
Brouillette, Hon. Dan R.:
    Opening Statement............................................    13
    Written Testimony............................................    16
    Responses to Questions for the Record........................    56
Cantwell, Hon. Maria:
    Written Statement............................................     2
Chatterjee, Neil:
    Opening Statement............................................    18
    Written Testimony............................................    20
    Responses to Questions for the Record........................   106
Cornyn, Hon. John:
    Opening Statement............................................    11
Daines, Hon. Steve:
    Statement for the Record.....................................   208
Energy Equipment & Infrastructure Alliance:
    Letter for the Record........................................   209
EnerNOC, Inc.:
    Letter for the Record........................................   211
Franken, Hon. Al:
    Opening Statement............................................     9
Hoffman, Patricia A., U.S. Department of Energy:
    Letter dated May 19, 2017 to Dr. Robert Weisenmiller, Chair 
      of the California Energy Commission........................   212
Laborers' International Union of North America:
    Letter for the Record........................................   214
National Association of Manufacturers:
    Letter for the Record........................................   216
McConnell, Hon. Mitch:
    Opening Statement............................................     6
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Powelson, Hon. Robert F.:
    Opening Statement............................................    22
    Written Testimony............................................    25
    Responses to Questions for the Record........................   153
SoCalGas:
    Letter dated April 28, 2017 to Mr. Stephen Berberich, Mr. 
      Michael
      Picker, and Mr. Robert Weisenmiller........................   218
Toomey, Hon. Patrick J.:
    Opening Statement............................................     5
Utilities Technology Council:
    Letter for the Record........................................   222


      PENDING NOMINATIONS OF BROUILLETTE, CHATTERJEE AND POWELSON

                              ----------                              


                         THURSDAY, MAY 25, 2017

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:45 a.m. in Room 
SD-366, Dirksen Senate Office Building, Hon. Lisa Murkowski, 
Chairman of the Committee, presiding.

  OPENING STATEMENT OF HON. LISA MURKOWSKI, U.S. SENATOR FROM 
                             ALASKA

    The Chairman. Good morning. We will call the Committee to 
order.
    It should be noted for the record that sitting next to me 
this morning is not my Ranking Member, Senator Cantwell, but I 
am joined this morning by Senator Franken, who will be filling 
in for Senator Cantwell, who is a little bit under the weather 
this morning. I know she wanted to be here and she has a 
statement that she will submit as part of the record.
    [The information referred to follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
     
    The Chairman. We are here this morning to consider three 
nominations: Dan Brouillette, to be Deputy Secretary of Energy; 
and Neil Chatterjee and Robert Powelson, to be members of the 
Federal Energy Regulatory Commission (FERC).
    I want to welcome all three of the nominees to the 
Commission and thank them for their willingness to serve our 
country.
    To start, we will hear introductions from Majority Leader 
McConnell, from Senator Cornyn and from Senator Toomey. They 
have come to provide introductions and to speak to the 
nominees' qualifications.
    I recognize that we do not have two of our three, but I 
would like to welcome you, Senator Toomey, to the Committee. If 
you would like to go ahead with the introduction of Mr. 
Powelson, we can commence and then hopefully Senator Cornyn and 
Leader McConnell will be joining us as well. After you have 
made your comments, we will have an opportunity to provide ours 
and turn to the nominees themselves.
    Thank you for joining us this morning.

             STATEMENT OF HON. PATRICK J. TOOMEY, 
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Toomey. Thank you very much, Madam Chairman, and 
thank you to the ``Giant of the Senate'' for filling in for 
Ranking Member Cantwell.
    Senator Franken. You are quite welcome.
    Senator Toomey. Senator Franken, good to see you both, as 
always.
    We have three outstanding nominees that your Committee will 
be hearing from today, and I am delighted that your Committee 
is doing so. It is my personal honor to introduce Rob Powelson 
to the Committee.
    Mr. Powelson is a native of Chester County, Pennsylvania. 
And he has had a successful career both in business and in 
public service and he has certainly established himself as one 
of America's leading experts in energy policy and particularly, 
electricity markets, serving, as he currently serves as a 
Commissioner on the Pennsylvania Public Utility Commission.
    I think it's entirely fitting that President Trump chose to 
nominate a FERC Commissioner from Pennsylvania. Pennsylvania is 
now a top energy-producing state. We are number two in the 
nation in natural gas production. The development of the 
Marcellus shale has been a tremendous boon to the Pennsylvania 
economy and job creation. And Pennsylvania ranks number three 
in the nation in electricity generation. We're a net exporter 
of electricity, utilizing all sources of energy, including coal 
and natural gas and nuclear.
    Energy infrastructure needs improvement, especially in 
Pennsylvania, but beyond. We need to keep pace with the natural 
gas production that has come online recently, and we need to 
make sure that we maintain affordable prices for consumers.
    Rob Powelson, as I mentioned, has served on the 
Pennsylvania Public Utility Commission. He has done so since 
2008 when he was unanimously confirmed by the Pennsylvania 
Senate. He was the Chairman for four years and in that capacity 
oversaw Pennsylvania's electricity, water, natural gas and 
telecommunication markets. He managed a staff of 500 employees 
and served on a state-wide task force for natural gas 
development where he focused on, among other things, the 
feasibility of compressed natural gas vehicles in Pennsylvania.
    He also has a record of improving our pipeline safety, 
hired a significant number of additional pipeline safety 
inspectors and worked with federal and state lawmakers to pass 
common sense safety reforms.
    Mr. Powelson oversaw the cleanup after Hurricane Sandy 
where we had to restore electricity to one and a half million 
affected customers and implemented electric utility response 
plans for future emergency events.
    Mr. Powelson is the current president of the National 
Association of Regulatory Utility Commissioners (NARUC) which 
represents state utility regulators across the country. And 
prior to his public service, Mr. Powelson served as the CEO and 
President of the Chester County Chamber of Business and 
Industry, an organization that he led for 14 years and which 
received accreditation from the U.S. Chamber of Commerce during 
his tenure.
    He also currently serves on the Board of Trustees of Drexel 
University.
    It is an honor for me to be able to be here today to 
introduce and to be an advocate for Rob Powelson. He will 
certainly provide the FERC with a wealth of knowledge and 
experience. I know he will support American energy independence 
and to ensure the reliability of our electric grid.
    So, again, I want to thank Chairwoman Murkowski and all the 
members of the Committee. And I appreciate the opportunity to 
be with you today.
    The Chairman. Thank you, Senator Toomey, we appreciate 
that, and I know Mr. Powelson appreciates your introduction as 
well.
    Leader McConnell, it is good to have you before the 
Committee. We are pleased to finally begin the processing of 
these FERC nominees, and you have a special relationship with 
one of them this morning so we welcome you to the Committee to 
introduce Mr. Chatterjee.

              STATEMENT OF HON. MITCH McCONNELL, 
                   U.S. SENATOR FROM KENTUCKY

    Senator McConnell. I do indeed, Madam Chairman. Thank you 
so much, members of the Committee.
    I am here this morning to recommend an extremely well 
qualified Kentuckian. Let me start with the headline that Neil 
Chatterjee is going to make a great addition to the Federal 
Energy Regulatory Commission.
    He has worked in my office for about a decade. And for 
those of you who know him, and I know several of you do, he is 
someone with a real passion for energy policy. His mastery of 
the issues is extremely impressive. He knows the ins and outs 
of just about every energy topic you can think of, and if you 
let him, he will talk your ear off about it.
    I have no doubt he would approach matters that come before 
the Commission with the same kind of thoughtfulness and 
enthusiasm. Of course, it's one thing to have a great idea. 
It's another to get the idea enacted. And Neil has gotten that, 
clearly, over the years. He knows the importance of building 
bridges and finding common ground. He's got a real gift for 
forging strong and lasting relationships, sometimes with 
Republicans, sometimes with Democrats. And more often than you 
might think, believe it or not, with Barbara Boxer. We call 
Neil the Boxer whisperer in my office.
    [Laughter.]
    It is a term of endearment, I assure you.
    [Laughter.]
    Let me give you an example. His work was key in forging 
alliances between Senator Boxer, myself, some would argue a 
rather odd couple, and others that ultimately resulted in a 
bipartisan agreement on issues that once seemed completely 
intractable, the five-year highway bill is one notable example. 
WERTA is another. Both of these bills, obviously, had strong 
infrastructure component and an agency like FERC, that 
considers issues related to infrastructure, having that kind of 
varied experience, which Neil has, will be a particular asset.
    So here is what Senator Boxer said on the Senate Floor 
after one of our legislative successes together about Neil. She 
said, ``Neil helped us greatly to know the lay of the land. He 
said this is where we have problems. This is where we can come 
together. I hope,'' Senator Boxer added, ``I do not ruin his 
career by thanking him.''
    [Laughter.]
    Well I think the fact that we're having this hearing today 
proves that Senator Boxer didn't ruin his career. Neil has 
repeatedly shown how to get a good result while listening to 
good ideas, proposing those of his own and ultimately working 
in good faith to get things accomplished. He's got the right 
attitude when it comes to thoughtfully hearing out all sides of 
an argument as well. He is, by every measure, exceptionally 
well qualified for the position to which he's been nominated.
    I will also note that in addition to Neil's background in 
energy and infrastructure issues, he also has experience 
working on environmental matters. His efforts on TSCA, another 
important bipartisan accomplishment for our country, is another 
example.
    As the members of this Committee know, it is long past time 
to get FERC working again and the quorum it needs. I think the 
President made wise choices in the selection of Robert Powelson 
and Neil Chatterjee for these important positions.
    Obviously, I hate to lose Neil, but I know that FERC and 
our country will benefit from the expertise, the talent, the 
good humor, I have come to know this nominee possesses over the 
years.
    Thank you so much for your consideration today of this 
outstanding nominee.
    Thank you, Madam Chair.
    The Chairman. Thank you, Leader McConnell.
    Many of us here in this room have had an opportunity to 
work with Neil as we attempted to move our energy bill, not 
only through the Senate last year, but through the whole entire 
process, and Neil was a great friend and ally.
    We are going to have an opportunity to re-up that, perhaps 
not with Neil's expertise, but an opportunity to continue much 
of the good work there. So we appreciate that. We appreciate 
you coming over to the Committee, and we appreciate your time.
    We are still waiting for Senator Cornyn, but I think what I 
would like to do is at this time ask the nominees to come 
forward and take their seats. I will make my opening statement 
and ask Senator Franken to make his. After that, if Senator 
Cornyn has joined us, we will hear from him, but we will then 
swear in each of the nominees, hear their testimony and also 
ask for the introduction of their family members, many are here 
with us this morning.
    As has been noted, this is a significant hearing. It is 
significant because this is a step toward restoring a crucial, 
independent commission to functionality. FERC has been 
operating without a quorum since February 3rd, for two reasons. 
First, was President Obama's failure to nominate anyone for the 
two Republican seats that were vacated in 2015 and 2016. Then 
also, former Commissioner Norman Bay's decision to resign from 
his term in February, well before it was scheduled to end. As a 
result of those two factors, this is the first time in 40 years 
that FERC has lacked a quorum, and according to Bloomberg, up 
to $50 billion in projects are now at risk.
    So we need to move quickly to restore FERC's ability to do 
its important work. If we care about the business of a 
critical, independent, expert agency, we need to have a fully 
functioning commission. That is why I am pleased that we are 
able to hold a hearing featuring two very qualified nominees.
    Our first nominee, Neil Chatterjee, is well known to all of 
us here on the dais. As I mentioned, he has been instrumental 
here with the Committee, helping us on energy-related matters. 
He is a first-rate energy professional. Almost all of us have 
worked with him on bills that drew bipartisan support and 
passed the Senate, in part, because of his efforts and his 
guidance. Neil is known to consider all points of view and has 
repeatedly brought decisionmakers with distinct perspectives 
together, and I think we heard that just now from the Majority 
Leader. I have worked with Neil now for five years. I am 
pleased to support his nomination, and I believe that his 
approach will well serve the Commission.
    Our second nominee, Robert Powelson, has been a leader on 
the Public Utility Commission of Pennsylvania for years and is 
now the President of the National Association of Regulatory 
Utility Commissioners, NARUC.
    His colleagues, including several of my friends from 
Alaska, have recognized his leadership. They share their 
support for his confirmation to the FERC, and I likewise 
support Mr. Powelson's nomination.
    Our third nominee this morning is Dan Brouillette. This 
will be his second term at the Department of Energy (DOE), 
having served as Assistant Secretary for Congressional and 
Intergovernmental Affairs from 2001 to 2003. Following his time 
at DOE, he served as the Staff Director of the House Energy and 
Commerce Committee, Vice President of Ford and is currently 
Senior Vice President at USAA. He is well qualified for the 
role of Deputy Secretary. He has the confidence of Secretary 
Perry, and I believe he will be a capable partner at the 
Department.
    All of us are very well aware that the President's budget 
request proposes significant cuts to basic research and applied 
energy programs, along with the elimination of certain programs 
that have proven to be effective for accelerating innovation. 
While Mr. Brouillette will play a significant role in 
developing and implementing any changes that are made at DOE, I 
think we should all remember that the budget request was 
written without him. Now I do not agree with everything in it 
and questions about his views and his priorities are certainly 
fair this morning, but I don't think it is going to do us much 
good to try to hold Mr. Brouillette personally accountable for 
the budget proposal or try to delay his confirmation based on 
it.
    So for members who have questions of our nominees, and I am 
sure all will, I will be here for as long as possible this 
morning. Should members have additional questions after the 
hearing any questions for the record will be due at the close 
of business today. I would just advise members to be prepared 
to report these nominees, as well as the nomination of Mr. 
Bernhardt, to be Deputy Secretary of the Interior, right after 
we come back from our work period after this next week.
    With that, I will now turn to Senator Franken. I thank you 
for filling in this morning on this very important hearing and 
appreciate your comments this morning as well.

                 STATEMENT OF HON. AL FRANKEN, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Franken. Thank you, Madam Chair, and thank you for 
your comments.
    We have three very important nominations before us this 
morning. We are experiencing a dramatic transformation in our 
energy sector. American innovation is not only changing how we 
produce and use energy, it is also providing an enormous 
economic opportunity in a growing global market for clean 
energy technologies.
    According to Bloomberg New Energy Finance, $7.8 trillion 
will be invested in new, renewable energy facilities between 
now and 2040. The International Energy Agency estimates that an 
additional $23 billion will be spent on the energy efficiency 
during this same period. It is essential that our government 
invest in research and development and that we adopt the 
appropriate policies to maintain the United States as the 
world's clean energy leader.
    Both the Department of Energy, DOE, and the Federal Energy 
Regulatory Commission, FERC, can play a key role in this clean 
energy revolution or they can hold us back while our 
international competitors reap the rewards. That is the prism 
through which I will consider the nominees that we hear from 
today.
    The Deputy Secretary of Energy is the Department's second 
highest ranking official. He serves as the Department's Chief 
Operating Officer and is often assigned the Department's 
biggest challenges.
    The next Deputy Secretary will have an especially difficult 
job. He will help manage the nuclear arsenal. He must continue 
to enhance our nuclear non-proliferation capabilities. He must 
ensure that DOE meets its obligations to clean up the weapons 
complex. If Ranking Member Cantwell were here, she would 
underscore that the Hanford cleanup is a key part of this 
discussion, wouldn't she?
    The Chairman. She absolutely would.
    Senator Franken. Yes, she would.
    The Deputy Secretary must also maintain DOE's preeminent 
role as a global scientific and technology powerhouse. The 
Department's support for basic and applied research and for 
technology innovation through its national laboratories is 
absolutely essential.
    The Department of Energy is our investment in the future. 
We look to DOE and its researchers for innovations that keep 
our nation secure and our infrastructure and economy strong. 
The next Deputy Secretary will face an especially difficult job 
because the President, who has nominated him, does not seem to 
understand any of this.
    The budget the President released earlier this week 
proposes to slash many of DOE's essential programs. It would 
devastate our emerging clean energy economy, and it would raise 
electricity rates across the country by auctioning off public 
assets to the highest bidder. The President's budget would kill 
science, innovation and the jobs DOE supports today, and it 
would foreclose on the trillion-
dollar promise of the global energy economy of the future.
    When Secretary Perry appeared before this Committee during 
his confirmation hearing, he was asked several times about 
media reports that the Trump Administration was planning to 
devastate a number of important DOE programs and whether he 
would commit to defending the good work that the Department 
performs. Because he never gave this Committee a straight 
answer and failed to give me any confidence during a follow-up 
discussion, I voted against Secretary Perry's confirmation.
    If he is confirmed I hope Mr. Brouillette will be a voice 
of experience and reason in the Administration. The Deputy 
Secretary needs to have the wisdom and the courage to be an 
advocate for his Department and its important programs. He 
should not embrace and implement misguided policies. Instead, 
he should advocate and champion wise ones.
    We also will hear from nominees for two seats on FERC. It 
is unfortunate that the Commission has not had a quorum since 
early January. Then Chairman Bay told the transition team he 
would resign if replaced as Chair and that is exactly what 
happened. It then took the White House approximately three 
months to send us nominees that could restore the quorum.
    I am disappointed that one of our two sitting Democratic 
Commissioners has chosen not to seek another term. Commissioner 
Honorable has served with great distinction, and she has my 
sincerest thanks.
    It is important that we restore the quorum at the 
Commission, but it is equally important that the President 
nominate two more members to fill the remaining vacancies, one 
Democratic and one Republican and maintain the party balance 
that the law requires. We on the Committee will be working with 
Senator Schumer to ensure that that happens.
    FERC will eventually have a new chair and four new 
commissioners that will be called up to make numerous decisions 
that will impact our energy future. In my view, the Commission 
needs to ensure that incumbent utilities do not discriminate 
against new technologies such as wind and solar power, 
distributed generation and energy storage. Similarly, FERC must 
continue to play a key role in protecting the reliability of 
the bulk power system, especially in enhancing the industry's 
ability to guard against the growing threat of cyberattack.
    I will want assurances from the FERC nominees that they 
recognize the gravity of this issue. The law establishing the 
Commission requires its members to be ``individuals who, by 
demonstrated ability, background, training, or experience are 
especially qualified to assess fairly the needs and concerns of 
all interests affected by federal energy policy.'' I look 
forward to hearing from both of the FERC nominees this morning.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Franken.
    Senator Cornyn has joined the Committee. We have already 
heard from Leader McConnell and Senator Toomey in the 
introduction of Mr. Chatterjee and Mr. Powelson, but we would 
welcome your introduction this morning, Senator Cornyn, of Mr. 
Brouillette to be nominee within the Department of Energy.

                STATEMENT OF HON. JOHN CORNYN, 
                    U.S. SENATOR FROM TEXAS

    Senator Cornyn. Well, thank you, Chairman Murkowski, Acting 
Ranking Member Franken. Thank you for holding this hearing to 
consider these nominations today, all of which are very 
important. I'm here particularly to introduce Dan Brouillette, 
who has been nominated as Deputy Secretary of the Department of 
Energy, and it's an honor to introduce him and to see his 
large, beautiful family.
    Dan hails from my hometown of San Antonio, also known as 
Military City, USA. Although he may tell you he is not a native 
Texan, he did get there as fast as he could. And let me also 
say Dan is glad to have his wife, Adrienne, here and all their 
children. And of course, it has always been a pleasure. The one 
thing that always impresses me about Dan and his wife is just 
how incredibly well behaved your children are. You all have 
done really well.
    In San Antonio, Dan serves as Senior Vice President at 
USAA, a Texas-based company made up of a tremendous team of 
hard working people with a heart for serving military families. 
But before his role there, Dan's career was one marked by 
dedicated public service, that service began in the United 
States Army as a tank commander and reserve drill instructor.
    After serving eight years in the Army, Dan didn't want to 
give up on government service, so he became a legislative 
director on the House side for eight more years learning the 
ins and outs of Congress which will serve him well in his new 
role.
    Later, he was nominated by President George W. Bush to 
serve as Assistant Secretary for Congressional and 
Intergovernmental Affairs at the Energy Department, a job that 
requires a keen understanding of how to get the Executive and 
Legislative branches on the same page to achieve results.
    Following his first tour at DOE, Dan came back to the Hill 
to serve as Majority Staff Director on the House Energy and 
Commerce Committee.
    And most recently, Dan served on Louisiana's Mineral and 
Energy Board for three years.
    Dan's the kind of man we should all want in a senior 
position at the Department of Energy. He doesn't just have 
policy chops, but he also knows the Executive Branch can work 
in tandem with Congress to produce good results for the 
American people. There's absolutely no doubt in my mind that a 
man of his caliber, someone who's demonstrated great 
leadership, a zeal for public service and a firm understanding 
of our nation's energy needs, will serve the United States 
well. That is why I wholeheartedly support his nomination and 
encourage the Committee to do the same.
    I look forward to working with him and Secretary Perry and 
the rest of the Administration to make the United States an 
even stronger player in the global energy landscape, something 
which, Madam Chairman, I know you support enthusiastically.
    Thank you very much.
    The Chairman. Enthusiastically.
    We appreciate you being here this morning and for your 
welcome and introduction. I do note for the record that we are 
getting a little bit Texas heavy here, but that is okay.
    Senator Cornyn. There's no such thing, no such thing.
    The Chairman. We can help balance it out with Alaska, I am 
sure.
    [Laughter.]
    Senator Cornyn, thank you for joining the Committee.
    At this time, I will invite the nominees to please stand.
    The rules of the Committee which apply to all nominees 
require that they be sworn in connection with their testimony. 
So I would ask you each to raise your right hand.
    Do you solemnly swear that the testimony you are about to 
give to the Senate Committee on Energy and Natural Resources 
shall be the truth, the whole truth and nothing but the truth?
    [Each nominee responds, I do.]
    The Chairman. Before you begin your statements, you can go 
ahead and keep standing, but I would just ask you to lower your 
hand.
    Before you begin your statement, I will ask you three 
questions addressed to each nominee before this Committee.
    Will you be available to appear before this Committee and 
other Congressional Committees to represent departmental 
positions and respond to issues of concern to the Congress?
    [Nominees respond with Yes.]
    The Chairman. Are you aware of any personal holdings, 
investments or interests that could constitute a conflict or 
create an appearance of such a conflict should you be confirmed 
and assume the office to which you have been nominated by the 
President?
    Mr. Chatterjee?
    Mr. Chatterjee. My investments, personal holdings and other 
interests have been reviewed both by myself and appropriate 
ethics counselors within the Federal Government. I've taken 
appropriate action to avoid any conflicts of interests. There 
are no conflicts of interest or appearances thereof, to my 
knowledge.
    The Chairman. Mr. Powelson?
    Mr. Powelson. Madam Chair, I would echo what Nominee 
Chatterjee presented to you.
    I have no ethical or financial disclosure issues to report.
    The Chairman. And then finally, are you involved or do you 
have any assets held in blind trusts?
    [Nominees respond with No.]
    The Chairman. Thank you. You may sit down and we will 
proceed with your testimony.
    As each of you have already been introduced, at this time I 
would invite you to introduce your family and provide the 
Committee with your opening statement. We would ask that you 
try to limit your statement to just about five minutes and your 
full comments will be included as part of the record.
    Mr. Brouillette, we will begin with you and then we will go 
down the line. So if you would like to commence your comments 
this morning and your introduction of your beautiful family.

 STATEMENT OF HON. DAN R. BROUILLETTE, NOMINATED TO BE DEPUTY 
                      SECRETARY OF ENERGY

    Mr. Brouillette. Thank you, Chair Murkowski.
    Thank you, Chairman Murkowski and Acting Ranking Member 
Franken. It is my honor to be here today and all told, the 
staff, the professional staff of this Committee and the 
professional staff of the individual offices, thank you for the 
opportunity to appear before this Committee as the President's 
nominee to be Deputy Secretary of Energy.
    Each of you have been extremely generous with your time and 
gracious with your counsel, and it's been truly a pleasure to 
sit down with you and understand your special, your particular 
policy interests and more importantly, your expectations of the 
Department of Energy.
    I'd also like to thank the President and Secretary Perry 
for the confidence that they have placed in me with this 
nomination. It is truly humbling to be here today and, if I'm 
fortunate enough to be confirmed to this important position, I 
look forward to working with them and with you, this Committee, 
to advance our nation's energy and national security interests.
    I know they've been introduced already, but Madam Chairman, 
as important a position as this is I actually hold a more 
important position and that is as father and husband. And I'll 
take a moment just to introduce the rest of our family. With me 
is my wife of 29, 28 years? How long has it been?
    [Laughter.]
    It's been a long time. She's been my best friend for nearly 
30 years and we have been together a long time. But my wife, 
Adrienne, is here, and our nine children. And if I can quickly 
name them all. Christopher is right here in the front row. We 
have Stephen and his wife Lauren. We have Julia, Danielle. I 
can't see them. Danielle, Sam, Catherine, Jackie, Joelle, 
Adelaide, and Christopher.
    The Chairman. Can we ask them all to stand?
    Mr. Brouillette. I'm sorry?
    The Chairman. Will you ask them all to stand so we can 
recognize them?
    Mr. Brouillette. There we go.
    [Applause.]
    The Chairman. Thank you.
    Mr. Brouillette. There we go.
    We also have with us this weekend my mom from Louisiana, 
Deanna Brouillette, my sister-in-law, Laura Brouillette, and 
many, many friends and family, friends and colleagues that we 
do consider family. It's never lost upon me that without them, 
I wouldn't be here today.
    If confirmed to this position, it will be the third time, 
as Senator Cornyn said, in a three-decade career that I take an 
oath to defend the Constitution of the United States.
    My path to this Committee to here today, leads through the 
United States Army, where I served as a young tank commander in 
the 11th Armored Cavalry Regiment. Many years ago, we stood in 
the ``Fulda Gap'', which was then the ``furthest frontier of 
freedom.'' It was the front line of our nation's efforts to 
deter Russian nuclear and conventional aggression.
    From there, service in the U.S. Congress, as Senator Cornyn 
alluded to, and the Department of Energy. And I also served 
with Congressman ``Billy'' Tauzin of Louisiana and later served 
as his Staff Director to the counterpart of this Committee in 
the U.S. House, the House Energy Committee. It was with Billy 
that I learned the value of bipartisanship. He was a gifted 
legislator. He's a gifted lawyer and he taught me well while I 
was there.
    From there, I served with two iconic American companies, 
Ford Motor Company and USAA. And in each of those roles I've 
been fortunate to work with individuals who are truly visionary 
and capable.
    For Calvary troopers across the world, Lieutenant General 
and now National Security Advisor, H.R. McMasters, a modern-day 
Patton. I was fortunate enough to serve in the Army and for all 
of us who were in the cavalry and tank commanders, we looked up 
to him and we learned a lot from him.
    In this room, several Chairs of this Committee have served 
as informal mentors. Senators Murkowski, Bingaman, Johnston, 
Landrieu and Domenici.
    At Ford and USAA, I was honored to serve next to 
individuals who helped develop market technologies we now take 
for granted, adaptive cruise control, hybrid vehicle power 
systems, and remote deposit capture, which is a technology that 
USAA invented that allows you to take a picture of a check and 
have the funds immediately deposited to your banking account. 
Many of those people were former DOE scientists.
    Additionally, at USAA I've had the extreme privilege of 
serving our nation's military community at times they most 
needed us--and that was during the difficult moments that 
followed a natural catastrophe or personal tragedy. All of 
these experiences are diverse and varied, just as the Energy 
Department itself, and each experience has prepared me well, I 
think, for the dynamic challenges and opportunities that lie 
ahead.
    If I'm fortunate enough to be confirmed, I'll look forward 
to serving as Deputy Secretary, along with the members of this 
Committee, Secretary Perry and the incredible workforce at DOE 
to address the wide array of opportunities and challenges 
facing the Department with expanding obligations.
    Chairman Murkowski, Acting Ranking Member Franken and I 
will say, Ranking Member Cantwell because we had a fantastic 
meeting yesterday and I did get an opportunity to learn from 
her, thank you again for the opportunity to be here today.
    It is an honor and I look forward to your questions.
    [The prepared statement of Mr. Brouillette follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    The Chairman. Thank you very much, Mr. Brouillette.
    Mr. Chatterjee, welcome to the Committee. We welcome your 
comments and the introduction of your family as well.

 STATEMENT OF NEIL CHATTERJEE, NOMINATED TO BE A MEMBER OF THE 
              FEDERAL ENERGY REGULATORY COMMISSION

    Mr. Chatterjee. Thank you, Chairman Murkowski, Acting 
Ranking Member Franken, Senator Cantwell, members of the 
Committee, thank you for this opportunity. It is my distinct 
privilege to come before you today as a nominee to serve as a 
Commissioner on the Federal Energy Regulatory Commission.
    If confirmed, I will serve to the best of my ability, 
always seeking what is right for our country and for the 
American people.
    I want to express my sincere appreciation to President 
Trump for presenting me the opportunity to serve my nation in 
this manner and to Chairman Murkowski for her support, her 
encouragement and her efforts in scheduling this hearing 
without delay.
    I'd also like to thank Leader McConnell for being here with 
us and introducing me today. Words cannot convey how grateful 
and humbled I am by this opportunity. Serving as the Leader's 
energy policy advisor has truly been the honor of a lifetime, 
and, put simply, I would not be where I am today without him 
entrusting me with this great responsibility all these years.
    Growing up in Lexington, Kentucky, I remember seeing the 
work Senator McConnell did on behalf of the Commonwealth and I 
dreamed of eventually serving under him in the Senate. Of 
course, back then, I couldn't have known that I'd actually 
achieve that goal, much less that I'd be sitting before this 
distinguished Committee as a nominee for Commissioner, with the 
Leader speaking on my behalf.
    The experience I've gained while working for Leader 
McConnell these past years extends well beyond the ins and outs 
of energy policy, though of course that's a significant part of 
why I'm here today. But of equal importance, are the many 
principles about one's temperament, about discipline, about 
judgment and about patience that the Leader has taught me by 
example. Each of these lessons has had a profound impact on who 
I am, and who I will continue striving to be if confirmed to 
this new role serving our country.
    There are several others I'd like to recognize, without 
whom none of this would even be possible. I am joined today by 
my amazing wife, Rebecca, my son, Bo, my son, Anderson, and my 
daughter, Lane. Rebecca and I have been together since high 
school and I have no doubt that it's because of her love and 
support, at every step of the way, that I am sitting before you 
now.
    The Chairman. We welcome the whole family to the Committee. 
Nice to have you here.
    [Applause.]
    Mr. Chatterjee. I am also proud to be joined today by my 
parents, Drs. Sunil and Malaya Chatterjee, as well as my sister 
Sumana. My family has sacrificed a great deal to pave the way 
for me to reach this moment and I know I will never be able to 
thank them enough for their strength, for their wisdom and for 
their dedication. But today, I'd like to try.
    The Federal Energy Regulatory Commission is an independent 
agency responsible for ensuring just and reasonable wholesale 
rates while maintaining reliability. Its broad jurisdiction 
covers a wide array of energy matters and it plays an 
increasingly critical role in the development and maintenance 
of our nation's energy infrastructure. As the members of this 
Committee know well, this is a crucial time for the Commission 
and for America's energy future.
    Having had a front row seat to the legislative process over 
the last eight years, I've had the distinct privilege of 
working to address many matters that impact the entire country, 
from the Chairman's home state of Alaska, to the Commonwealth 
of Kentucky and just about everywhere in between. I've also had 
the opportunity to work with, I believe, nearly every Senator 
on this Committee at some point in time. Because of my 
experience developing sound policy with of different 
backgrounds and ideologies, I believe I can bring a much-needed 
perspective to the Commission should I be granted the 
opportunity.
    As my colleagues in the Senate on both sides of the aisle 
can attest, I have always endeavored to be pragmatic, fair and 
transparent in my interactions. In an effort to gain majority 
support on key legislative priorities, I have proven my 
commitment to hearing all sides of an issue and looking for 
common ground. It is only then, I believe, that we can forge 
lasting and meaningful solutions to the critical challenges 
facing our nation.
    To cite some examples from my time in the Senate. I have 
worked with Chairman Murkowski and Ranking Member Cantwell on 
major bipartisan energy legislation; with Senators Portman and 
Shaheen on energy efficiency solutions; with Senator Stabenow 
on farm bills and on critical resources for the crisis in 
Flint; and with Senators Barrasso, Daines and Gardner on energy 
production issues, just to name a few. I've also, obviously, 
worked on a number of coal issues with Senator Manchin, and on 
energy efficiency issues with your team, Senator Franken, as 
well.
    I hope to be able to bring the same equitable, level-headed 
approach that I've taken here in the Senate with me to the 
Commission so that we can move our country forward on the 
numerous big issues before us.
    Former Commission Chairman, Joe Kelliher, often reminded us 
that FERC speaks loudest when it speaks with one voice. I 
couldn't agree more.
    If confirmed, I feel confident that my straightforward 
approach and reputation as a consensus builder can help foster 
that environment in the years to come.
    With that, I'd like to once again thank the members of the 
distinguished Committee for allowing me the opportunity to be 
here today. At this time, I look forward to answering any 
questions you may have.
    [The prepared statement of Mr. Chatterjee follows:] 
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
    The Chairman. Thank you very much, Neil. We appreciate you 
being here and for your comments this morning.
    Mr. Powelson, welcome to the Committee. It is an honor to 
have you before us, and we appreciate your willingness to step 
forward and to serve in this capacity as well.
    Your introduction, please.

STATEMENT OF HON. ROBERT F. POWELSON, NOMINATED TO BE A MEMBER 
          OF THE FEDERAL ENERGY REGULATORY COMMISSION

    Mr. Powelson. Well, good morning Chairman Murkowski and 
belated happy birthday. And Acting Ranking Member Franken, I 
also thank you for the opportunity to be here this morning.
    Let me first start off by personally thanking the entire 
Committee staffs, both on the Republican and Democratic side, 
for their steadfast commitment to, not only helping and 
listening to nominees but the work that they do on behalf of 
American energy.
    I'm deeply honored to be here today as a nominee to serve 
on the Federal Energy Regulatory Commission. I'd also like to 
thank President Trump for this incredible opportunity.
    I'm also humbled by the introduction here this morning from 
my home state Senator, Pat Toomey, for his very generous 
introduction. I'm proud of my lifelong residency in the 
Commonwealth of Pennsylvania for many reasons, and one of them 
is the Commonwealth's rich tradition of bipartisanship and 
collegiality among its congressional delegation.
    You know, anytime you get to an opportunity like this, is 
I'd like to say, it's your family that's here. And I want to 
take this opportunity to thank my family members. My wife of 19 
years and Dan, I'm inching toward you.
    [Laughter.]
    Lauren and I are lifelong Philadelphians and we're proud 
parents of our two sons. Ryan, who is not with us here today--
he's on a mission trip. He's 14 years old, a proud student at 
Malvern Preparatory, and he sent me a beautiful text message 
last night saying, Dad, good luck here this morning. But my 
other son, who's got the gift to be maybe a governor someday, 
Shane, who's 11 years old--and I'm very proud of his 
accomplishments this past year in his school year and his ice 
hockey. And then my wife of 19 years, her unwavering support of 
me throughout this process and my public service. I know she 
jokes with me, someday I'm going to get a real job, she says. I 
respectfully submit to her, it's been an honor to be a public 
servant in the Commonwealth of Pennsylvania.
    And a dear family friend, my former Board Member and 
Godfather to my sons, just a great gentleman, John McGowan, is 
with me here.
    I also want to recognize a young lady who's worked for me 
for six years but started her career working at the Federal 
Energy Regulatory Commission, my Chief of Staff, April Baloo. 
This young lady is just an incredible asset to me. She's a 
great, just an unbelievable asset, and I'm proud that she's 
with me here today.
    The Chairman. Wonderful to have your family and your 
friends. Thank you.
    Mr. Powelson. Thank you.
    [Applause.]
    To the members of the Committee, thank you for conducting 
today's hearing. I know many of you are, kind of, impatient 
with the fact that it's taken this long to get here, but I want 
to personally say, we appreciate this opportunity here today. I 
am truly honored by the nomination, and I look forward to 
answering your questions and discussing the important energy 
issues facing our nation.
    If confirmed, I pledge to you I will bring a steadfast 
commitment to upholding FERC's mission to ensure that rates are 
just and reasonable by which utilities operate and more 
importantly, that we protect the public interest standard in 
our decision-making.
    Now, as you heard from Senator Toomey, for the past 8-1/2 
years, I have served as a public utility commissioner in the 
Commonwealth of Pennsylvania. And I believe that my experience 
there has suited me well for this potential opportunity.
    I was nominated to the Pennsylvania Public Utility 
Commission in 2008 by Democratic Governor Ed Rendell and was 
approved unanimously by the Pennsylvania State Senate. In 2011, 
Republican Governor Tom Corbett appointed me to serve as 
Chairman. And in 2014, I was re-nominated by the Pennsylvania 
State Senate to serve a second term and again, was unanimously 
confirmed, excuse me, by the Pennsylvania State Senate.
    During my time as chairman, I often look back over that 
wonderful experience, but I had a number of events that I had 
to deal with. As Senator Toomey mentioned, the restoration 
associated with Super Storm Sandy was really a life-changing 
experience for me. Pennsylvania was impacted dramatically by 
that weather event and we worked very closely with our federal 
agencies, our National Guard and others, to really create, what 
I consider to be, a national success story when it comes to 
power restoration. Most Pennsylvanians were restored power in 
less than four days.
    I'm also proud of the fact that Pennsylvania was one of the 
first states in the nation to adopt a Distribution System 
Improvement Charge to get at antiquated, hazardous distribution 
pipeline in our gas distribution systems.
    During my tenure at the Commission, I also oversaw the 
successful implementation of Act 129 which is Pennsylvania's 
energy efficiency and conservation law. And I'm also proud of 
the fact that as Chairman I administered Pennsylvania's very 
successful renewable portfolio standard.
    And Senator Franken, I appreciate your comments around 
clean tech investment because we're going to need it all in 
this 21st century environment.
    Let me conclude that one of the greatest honors that has 
been bestowed on me is to serve as our President of the 
National Association of Regulatory Commissioners and NARUC is a 
wonderful organization, founded in 1889. I can tell you that 
looking back on just my tenure working across the 50-state 
compact and more recently, our international outreach, it's 
been truly a wonderful opportunity. What I learned from my 
experience in NARUC is that what works in Pennsylvania might 
not work in other jurisdictions and the proud appreciation we 
all have for our individual states' rights in supporting our 
state energy policies. As I like to say, the states have been 
the incubations of energy policy.
    So, Madam Chair, I really thank you for this opportunity 
and look forward to your questions from the Committee members 
here this morning.
    Thank you.
    [The prepared statement of Mr. Powelson follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
     
    The Chairman. Thank you, Mr. Powelson.
    We thank each of you.
    We will now begin a round of questions. Hopefully, we will 
have time for a second round, depending on the interest of 
Committee members.
    Let me begin with our FERC nominees first, and this is just 
generally related to the Alaska gas line.
    Back in 2015, the DOE granted conditional----
    [Protester shouting in the background.]
    The Chairman. Back in 2015, there was conditional 
authorization for the Alaska gas line to export LNG to 
countries that do not have a free trade agreement with the 
United States. This was a pretty major milestone for our 
efforts in the state with the gas line in terms of how we can 
move forward toward achieving the investment necessary, helping 
to build out the jobs and really build the economic growth. In 
April of this year the Alaska Gas Line Development Corporation 
filed their application with FERC. It is a 58,000-page 
application. It is substantive.
    The question for both of you is, and I am not going to ask 
you to prejudge any specific application. I know you can't do 
that. But just generally, do you support Alaska's effort to 
market its stranded gas? And then in terms of complications, 
again, of this size, I think we need to have some level of 
commitment that you will do what you can, provided you are 
approved, to see that not only the Alaska application but all 
applications can proceed through a process in a timely and a 
predictable way. I am going to ask the same question to both of 
you. Mr. Chatterjee, if you want to begin?
    Mr. Chatterjee. Thank you for the question, Chairman.
    Certainly, I believe in states and local communities 
seeking projects that are in their interests and would be 
supportive of projects that enable us to utilize our domestic 
energy resources. Should I have the opportunity to be 
confirmed, I will happily look to read through those 58,000 
pages and take very seriously the considerations made by folks 
and stakeholders on all sides of the issue.
    As you know from working with me here in the Senate, I try 
to be productive, to hear out stakeholders on all sides and 
come to decisions that are in the interest of the country and--
--
    [Protester shouting in the background.]
    The Chairman. The Committee will be in order, please.
    Mr. Chatterjee. And I hope to work with stakeholders in 
Alaska should I have the opportunity to perform.
    [Protester shouting in the background.]
    The Chairman. Mr. Powelson?
    Mr. Powelson. Thank you, Chairman, for the question here.
    The Chairman. You need to push the button there a little 
bit.
    Mr. Powelson. Thank you, Senator, for your question.
    I think you put it best one time, you look at the 
investment that we have oversight of, if nominated. It's $400 
billion per annum of critical infrastructure that needs to be 
approved by the FERC.
    And to echo what Neil said in his answer, respecting that 
state right compact, the states' ability to develop their 
energy resources and do it in a safe manner. Pipeline safety is 
critically important, and I stand behind that.
    And so, as these projects develop, I want to be fair and 
balanced, look at the record and obviously, the business case, 
as you know, we don't build these projects on speculation. And 
so, I would give you my steadfast commitment to be fair, 
balanced and do my homework in approving, if I have to give an 
approval to these projects.
    The Chairman. I appreciate that.
    Mr. Brouillette, we had an opportunity to discuss the high-
energy crisis in Alaska, particularly rural Alaska. In many of 
my communities we have folks that are paying upwards of $9 a 
gallon for home heating fuel and this is not just a challenge 
for many, it is a crisis.
    We spoke generally about your commitment to work with us to 
help do what we can to reduce the price of energy in Alaska and 
in other areas where we are significantly impacted. And again, 
we generally ask for your continued commitment to do just that.
    Mr. Brouillette. Yes, ma'am. You have that and whatever 
else I may be able to do to help the people of Alaska.
    As you and I discussed in your office yesterday, and thank 
you very much for that opportunity, I sincerely appreciated the 
chance to talk to you and learn more about that.
    There's many things that we can do from technology to 
supply, and we can do it in ways now that we couldn't do 50 or 
60 years ago. So it's very important that we increase domestic 
production, and I think you'll see that from this 
Administration, from this Department of Energy. I look forward 
to working with you and Secretary Perry on those matters.
    The Chairman. And we look forward to having you and the 
Secretary up North so that you can see for yourself some of the 
impacts there.
    Mr. Brouillette. I would be honored to visit.
    The Chairman. Very good. Thank you.
    Senator Franken.
    Senator Franken. I believe Senator Manchin is on a tight 
schedule, so I will yield to him.
    The Chairman. Certainly.
    Senator Manchin. Thank you, my friend. I appreciate that, 
Madam Chairman and Senator Franken.
    As you know, I come from West Virginia. We do a lot of 
heavy lifting and we are really dependent upon FERC, a working 
FERC. So we are very glad that we have two qualified people up 
for this nomination, and we will get to work as quick as we 
can.
    I would ask both of you, Neil and Robert, what are your 
concerns in the FERC? What do you think is the most critical 
challenge you have as FERC, as a FERC regulator?
    Mr. Powelson?
    Mr. Powelson. Thank you, Senator Manchin, for that 
question.
    I think there are a number of issues in front of us. 
Obviously, first and foremost, is the backlog of cases that are 
sitting there right now. I think Chairwoman LaFleur, to her 
credit, has done a remarkable job leading the organization and 
trying to keep some semblance in managing the day-to-day 
operations of the Commission.
    But let me go through the suite of issues from 
cybersecurity to physical security, to infrastructure 
investment, to, you know, dealing with market issues. We are 
certainly not lacking issues right now at the FERC. It is not 
only an exciting time but a very challenging time.
    Senator Manchin. If I may ask? Do you all know that there 
has been a request for a grid study? I think Mr. Brouillette 
understands me. We had a good conversation about this.
    Can I ask you all? Where do you believe the reliability, if 
you are looking at what the role of price is a big 
consideration, the grid system, PJM is big in this whole area, 
as you know. How do you rank reliability?
    Neil?
    Mr. Chatterjee. Thank you for the question, Senator.
    I think, you know, overseeing reliability is at the core of 
the Commission's mission, along with ensuring just and 
reasonable rates. And I think the key to ensuring that 
reliability is that we have a diverse fuel source, including a 
strong base load power.
    I think, obviously, coming from a region of the country, 
West Virginia and Kentucky, we've been dependent and we've been 
the beneficiaries in Kentucky of safe, affordable, reliable 
electricity from coal-fired generation. There is, obviously, 
considerable pressure on coal and coal's role in our generation 
mix. I think we need to have a diversified fuel mix going 
forward.
    Senator Manchin. Let me ask you this, if I could?
    Mr. Chatterjee. Yes, sir.
    Senator Manchin. You know how tight we are on time here.
    How do you define base load, base load fuel? Very quickly.
    Mr. Powelson. So coming from Pennsylvania and we're good 
neighbors. Always commend you as a former governor of a state.
    How do I define base load? If I look at the PJM mix right 
now it's nuclear, it's coal and it's natural gas, but 
renewables are playing a part of this energy mix.
    Senator Manchin. Sure.
    Mr. Powelson. But they're the resources right now that seem 
to be evolving and on a national level as well.
    Senator, I can tell you, there's a tectonic shift taking 
place across the U.S. In Pennsylvania right now, 30 percent of 
our generation, as you know, I came on the Commission in 2008, 
natural gas was less than 20 percent of the energy mix. It's up 
to 30 percent now. We're diversifying.
    Senator Manchin. In Pennsylvania, yes.
    Mr. Powelson. Yup.
    Senator Manchin. It is coming up strong in West Virginia. 
Coal is still 90, but it is coming up strong, and we are all 
for renewables too.
    Mr. Powelson. And we're going to need it all, to your 
point.
    [Protester shouting in the background.]
    Senator Manchin. Neil, if you could----
    Mr. Chatterjee. I agree with Commissioner Powelson. We need 
it all. We need coal, we need nuclear, we need hydro, and we 
need renewables. And then, I think, obviously, gas plays an 
important role, sometimes it serves as base load, sometimes it 
serves as backup and sometimes it's used opportunistically.
    [Protester shouting in the background.]
    Senator Manchin. The previous discussions----
    [Protester shouting in the background.]
    The Chairman. The Committee will come to order.
    Senator Manchin. I hope this does not count against my 
time.
    The Chairman. It will not count against your time, Senator.
    [Laughter.]
    [Protester shouting in the background.]
    Senator Manchin. Oh, boy.
    [Protester shouting in the background.]
    Senator Manchin. Is there anybody else in the audience who 
wants to say something before I get started again?
    The Chairman. Senator Manchin, your time has not been 
deducted from you, if you would like to proceed?
    Senator Manchin. Thank you, and God Bless America.
    My main concern, basically, is base load, and I am afraid 
that the polar vortex about took us down.
    Mr. Powelson, you know, and I think Mr. Chatterjee, you 
know how critical that was. And that is all we are asking for 
is the proper mix.
    I am being told by the utility companies that the proper 
mix, they are being forced because of certain conditions and 
certain requirements that the previous FERC has put on them, 
not to have the proper mix that they think to make the 
reliability. That is what we are concerned about.
    There is going to be a fuel of the future, I am sure, 10, 
20, 30 years from now, but right now we have to use the 
cleanest fashion we can, what we have that we can depend on. So 
that is mine.
    Mr. Brouillette, if I can, real quickly. You know there are 
some severe requests for budget cuts, and with that there is a 
recommendation on the NETL, the National Energy Technology 
Labs.
    Mr. Brouillette. Yes, sir.
    Senator Manchin. Consolidation.
    If you could speak about that and what your concerns would 
be and how you intend to take that on?
    Mr. Brouillette. Yes, sir. I appreciate the question. And 
thank you, again, sir, for spending time with me yesterday. I 
really appreciate it.
    Senator Manchin. Sure.
    Mr. Brouillette. The opportunity we had to chat in your 
office.
    If I could just back up, just real quickly and opine 
quickly on this grid study.
    As I told you yesterday----
    Senator Manchin. It was given to your new forthcoming 
agency.
    [Laughter.]
    Mr. Brouillette. Exactly.
    I've not been briefed on the study. But I'm told that it is 
and based on press accounts, it is to understand this new 
balance that may be affecting the marketplace. So, that's it's 
intent. I think it's going to be an internal study at this 
point to review a lot of literature that's been already been 
written by the laboratories.
    Senator Manchin. Sure.
    Mr. Brouillette. I know NETL is an important part of the 
laboratory components at the Department of Energy.
    The budget, as the Chairwoman, Chairman, explained earlier, 
I've not been a part of. I have read the paper accounts. I do 
understand that there are cuts.
    You know, I guess from my background, I understand full 
well what the process is too, sir.
    The President has made a request. And it does lay out his 
policy directives. But the process, as you all know better than 
I, involves both the House and the Congress. And I look 
forward, if confirmed, to working with the Congress to arrive 
at an appropriate number for the scientific labs.
    Senator Manchin. Well, that is all we would ask, and we 
want to make sure that we do the most effective and efficient 
thing we can for our country. I would hope that you would look 
into Morgantown, the NETL lab, which is a very, very productive 
lab and does an awful lot of heavy lifting and a lot of work. 
And it's tied into WVU's research centers, so it's really been 
very effective there.
    Mr. Brouillette. Yes, sir. They do outstanding work.
    Senator Manchin. Yes.
    I just want to thank all of you for your interest in 
serving. I really do. I know it is very difficult and it is 
very challenging, but I thank your families for the support 
they give to you all and for you all giving of yourselves 
because it is going to be very demanding in the next few years.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Manchin.
    Senator Lee.
    Senator Lee. Thank you, Madam Chair.
    Thanks to all of you for being here today.
    As you are aware, in many parts of the country there are 
public and private entities alike that are waiting for the 
approval of infrastructure projects, projects that would serve 
each community well and provide for substantial employment 
opportunities and opportunities for economic growth.
    In Utah, the Lake Powell pipeline project is something that 
would help to develop Utah's allocation of water from the 
Colorado River. If built, would help provide water to one of 
Utah's driest regions and also a region that is experiencing 
really fast growth. They need water.
    The preliminary licensing and environmental review 
documents have been filed with FERC. To date, we are 11 years 
into the project and, to date, about $32 million has been spent 
just in this process. Yet it is still nowhere near where it 
needs to be.
    I would like to ask some questions of those who have been 
nominated to serve in FERC. We will start with you, Mr. 
Chatterjee.
    What could you do to work to make sure that there is better 
coordination between agencies, between FERC, entities like the 
BLM and other agencies and departments? And would you consider 
supporting review deadlines for projects waiting for FERC 
approval?
    Mr. Chatterjee. Thank you for the question, Senator.
    I share your sentiment that this type of infrastructure 
development is critical to not just job creation, but to 
stimulating economic growth. And FERC plays a critical role in 
approving this, these, infrastructure projects moving forward.
    While I don't want to speak to the specific project you 
referenced, certainly, you know, philosophically, I want to 
make sure that the approval system is working as efficiently as 
possible. I do know that FERC often interacts with myriad 
agencies through the approval process.
    And you have my assurance that I would work to better 
coordinate and streamline this process in a responsible manner.
    I think one of the advantages that I can bring to the 
position is, you know, having served here in the legislative 
branch, with a national portfolio, I've developed relationships 
across a number of these agencies, as well as throughout the 
Congress. So I can reach out directly to some of these related 
agencies to ensure that the project can be better streamlined.
    But again, I need to stress, we need to do it responsibly 
because what we don't want to do is, in our push to do it 
expeditiously, create any kind of legal liability on the back 
end. But no question, we need to really look at making sure of 
the processes as efficient as possible.
    Senator Lee. How about you, Mr. Powelson?
    Mr. Powelson. Senator, thank you for your question. And I 
would start just to pick up on Mr. Chatterjee's point. If 
nominated, I think the first thing that I would do is really, 
kind of, do some root cause analysis of where these snags are 
presenting themselves in the Office of Energy Projects.
    And I think to Mr. Chatterjee's point, you know, not 
sacrificing things like pipeline safety or, you know, these 
delays, as you know, cost real money. And so, for me, 
personally as a state regulator, getting immersed in where are 
the issues, what's causing the problem and the delay.
    And then one thing I'd get a greater appreciation for in 
the time that I've spent here in DC, is kind of, there's still 
this silo mentality of different agencies sometimes not 
coordinating on that effort, whether it's Army Corps, EPA, DOE 
and others. So, I think we've got to start having these 
conversations if, again, we're talking about a state like 
yours, that wants to go forward with a project of this 
magnitude, that we're all moving in the same direction.
    Senator Lee. Yes.
    Mr. Brouillette, let's talk a little bit about the 
Strategic Petroleum Reserve.
    Are you open to the idea of reforming that and what do you 
think of what some, including the Trump Administration, have 
suggested about the idea of selling oil for deficit reduction? 
And if we are going to do that sort of thing, anytime we sell 
it, what can we do to optimize the price to make sure that we 
are getting our value out of it?
    Mr. Brouillette. Thank you for the question, Senator, and 
thank you as well for the opportunity to meet. I really enjoyed 
our conversation in your office.
    The Strategic Petroleum Reserve, as you know, was set up 
for a very specific reason and that was to maintain an 
emergency supply of fuel. The definitions and the conditions 
under which it could be sold, are very clearly defined in 
federal law.
    I am not familiar with the discussions, the policy 
discussions, that the Administration may have had to determine 
the level of sales that they have included in their budget 
request to the Congress.
    I can tell you as a general matter, I would stand by the 
federal law. I do think the Strategic Petroleum Reserve serves 
a valuable purpose. As the Chairman and I discussed as well, I 
am open to better mousetraps, if you will. I am not convinced 
that a single repository or a series of repositories in one 
location in the country is going to serve us well in certain 
moments or certain catastrophes.
    So, if confirmed, sir, I would be more than open to having 
a conversation about how we might reform that and make it much 
better and more effective.
    Senator Lee. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Lee.
    Senator Franken.
    Senator Franken. Thank you, Madam Chair.
    This is for the FERC nominees. Over the past decade we have 
seen a transformation in the way electricity is generated and 
delivered in the United States. With new technologies 
challenging the traditional grid model because of energy 
efficiency, electricity demand is down and this is saving 
households and businesses money.
    The plummeting prices of wind turbines and solar panels 
have driven more renewables and distributed power generation 
into the marketplace, and we are developing more efficient and 
effective energy storage systems which improves the reliability 
and resilience of the grid and allows increasing amounts of 
variable renewable energy sources.
    My state of Minnesota is on track to be 25 percent 
renewable by 2025. It is working so well the state is actually 
looking at ways of increasing that target to 50 percent by 
2020. And this transformation to clean, flexible resources is 
going to continue and the future of our grid will be 
fundamentally different than it is today.
    Mr. Chatterjee, Mr. Powelson, I would like to hear your 
visions for the future of the grid. In your view, what needs to 
be done to allow distributed energy technologies to 
meaningfully participate in the marketplace?
    Mr. Chatterjee. Thank you for the question, Senator 
Franken.
    There's no question in states like Minnesota and other 
regions of the country you are seeing rapidly increased 
deployments as there have been dramatic developments in 
technology. You know, I'm in favor of markets, I'm in favor of 
competition, and I'm in favor of technology, particularly when 
technology is in the best interest of consumers. I think that 
the Commission plays a critical role in the development of 
infrastructure and getting those, that infrastructure, 
permitted.
    Senator Lee asked a specific question about infrastructure. 
I think we need to look at our grid infrastructure to make sure 
that it's prepared to deal with this transformation as 
different technologies and renewables come into the 
marketplace. And I think I would take that same view, should I 
have the opportunity to be confirmed and serve at the 
Commission.
    I've met with a number of folks in this space and have been 
impressed with the innovation that has been ongoing. I was 
pleased yesterday to actually receive an endorsement from AEE, 
an advanced energy group who I'd met with on occasion and 
demonstrated my willingness to really learn about the 
advancements that are occurring and how to best integrate them 
into our energy mix.
    Mr. Powelson. Senator Franken, thank you for the question.
    I will wear my Pennsylvania hat and then go to another hat 
here.
    One is, I think, like your state, Pennsylvania, as you 
heard in my opening comments, we have a statewide energy 
efficiency program. It was adopted in 2008. Utilities have 
spent close to $1 billion in energy efficiency with a total 
resource cost to customers receiving net benefit of close to 
$1.8 billion. Those programs are working. I'm very proud of our 
record in Pennsylvania with what we've done with energy 
efficiency.
    I also support, you know, what you said about renewables. I 
mean, look, low, clean tech investment is part of this 21st 
century landscape. I live right on the border of a new plant 
that Governor Markell brought to Delaware.
    A decade ago you couldn't have defined what an oxidized 
fuel cell was. Now we have a company like Bloom Energy with 
their East Coast operation bringing oxidized fuel cells to the 
market.
    You mentioned battery storage, another critical part. I 
serve on the Electric Power Research Institute. I mean, we're 
going to have wind farms with battery storage capability here. 
EV charging, you know, solar and wind cost curves coming down 
dramatically, new metering technologies. Pennsylvania, like 
your state, we have advanced metering technology. So it is a 
dynamic marketplace.
    I'll leave you with one note, like my good friend here from 
Kentucky. In meeting with groups like the Advanced Energy 
Economy, the first thing I did as NARUC President was to 
implement an innovation task force to bring all these new 
technology providers into a working conversation with NARUC 
Commissioners. And it's been off to a great start.
    Senator Franken. Thank you for that answer.
    Thank you, both. I know I have run out of time. Just one 
thing, I would like to respond to Mr. Powelson in terms of 
storage and wind. That is part of the base load that we are 
talking about when we talk about base load.
    Mr. Brouillette, I was going to ask you about the DOE 
budget cuts. I have run out of time so I am not going to do 
that, but I would like to remark, the Chairwoman told me that 
you and your wife homeschooled your children.
    Mr. Brouillette. We do, sir.
    Senator Franken. All nine of them?
    Mr. Brouillette. All nine.
    Senator Franken. Are you going to have time to do this job?
    [Laughter.]
    I see some of them have aged out of----
    Mr. Brouillette. Given my wife's organizational skills, I'm 
starting to wonder if the wrong Brouillette was nominated.
    [Laughter.]
    She is very good at what she does.
    Senator Franken. Okay. And you do the math and science 
part?
    Mr. Brouillette. I try to, sometimes.
    Senator Franken. Okay, alright.
    [Laughter.]
    Okay.
    The Chairman. Okay.
    Senator Franken. Back to you.
    [Laughter.]
    The Chairman. Thank you, Senator Franken.
    Senator Gardner.
    Senator Gardner. Thank you, Madam Chair.
    Senator Franken, I think that is exactly why he needs a 
laboratory system that has advanced computational ability, to 
help with the process there.
    So I want to thank you, all of you, for being here today, 
the witnesses who are here today. I know there are a number of 
children in the room today and thank you for being here. I have 
three kids myself. And the fact is, moms and dads are doing 
this, they are willing to commit to public service because they 
believe that this is a way they can pay back the country and 
make this a very special place even that more special. So 
thanks to all the children who are here seeing their moms and 
dads go through a confirmation process because I know it takes 
away time from you all as well. Thanks for that service, that 
sacrifice and that commitment.
    Mr. Brouillette, I would like to start with you. I would be 
remiss if I did not talk about, carry on the conversation that 
we had in our office just a couple days ago, talking about the 
National Renewable Energy Laboratory in Colorado. We discussed 
the importance of that. We discussed the importance of grid 
reliability, diversified fuel mix. And I think nobody does that 
better and the understanding of how that works in combination 
with the diverse fuel mixture and making sure we have grid 
reliability than the National Renewable Energy Laboratory 
(NREL).
    Both you and Secretary Perry have expressed support for the 
National Renewable Energy Laboratory, but I want to make sure 
that it is clear that I will oppose any attempts to shut down 
lab operations. With the figures that I have in 2015, fiscal 
year, NREL received approximately $357 million across 13 EERE, 
energy efficiency and renewable energy office programs, 
research programs. The President's budget proposal provides 
about $636 million to EERE.
    I realize you are not at the Department yet, but you have 
been nominated to serve as the second in charge, second in 
command. So please explain to me how, if confirmed, you will 
work to reconcile the differences in order to ensure the 
Renewable Energy Laboratory programs ensure cyber and advanced 
computing will be continued, that those are priorities of the 
Administration at NREL.
    Mr. Brouillette. Thank you, Senator. I sincerely 
appreciated our opportunity to chat yesterday in your office.
    It's always enlightening to me. You have spent much more 
time at NREL than I have, but I have been there, many times. 
It's a fascinating place and it's a place filled with 
incredible talent. I'm always drawn there when I meet the folks 
there.
    As you mentioned with this particular budget I was not part 
of the process. But you have my assurance, if confirmed to 
serve in this role, that I will advocate for the programs of 
the Department. You have my assurance on that and I will always 
be available to you.
    The good people of NREL have not only invented much of the 
renewable technologies that we talked about with regard to 
potential base load application, they have enabled it. Much of 
the technology that they have developed is now in the 
marketplace because of their good work.
    So again, sir, if confirmed, I look forward to working with 
you and I will be an advocate for the programs.
    Senator Gardner. Thank you.
    Additionally, the support for grid modernization, the ease 
of energy systems integration facility, not clearly stated in 
the budget. Industry engagement, though, is showing that these 
are both critical to innovation. How would you advise Secretary 
Perry on where federal dollars should be spent in order to best 
prepare this country for energy leadership and cyber readiness?
    Mr. Brouillette. I'm sorry, can you repeat that again?
    Senator Gardner. Just the ease of program on cyber and I 
will submit that for the record because I will run out of time 
here.
    Mr. Brouillette. Sure.
    Senator Gardner. I want to get to the two FERC nominees, 
both to Mr. Chatterjee as well as Mr. Powelson.
    I spoke to both of you in the office. Thanks for coming in. 
I talked about my support for the liquefied natural gas export 
projects and facilities. I spoke of my support for a project 
called Jordan Cove that would take Colorado's Western Slope 
natural gas from the Piceance Basin, which is spelled a little 
bit like Brouillette, you have to figure out how to get them 
both spelled, to markets in Asia. I have long supported this 
project and look forward to the refiling of that project at 
FERC this summer during a time when we will have the quorum 
filled at FERC.
    I know you probably cannot comment on the Jordan Cove 
filing specifically, but I would like your position on LNG 
exports in general, if you can, Mr. Chatterjee and Mr. 
Powelson.
    Mr. Chatterjee. Thank you for the question, Senator.
    Yes, I've been advised I can't speak to any action that may 
come before the Commission. But I do think that permitting LNG 
facilities is an important part of FERC's role and it's a 
responsibility that I would take seriously. There are 
stakeholders on all sides of the issues. But while I certainly 
would look to try and get these projects sited, I would also be 
certain to hear feedback from folks on all sides of the issues 
and make the most responsible decision I could.
    Senator Gardner. Mr. Powelson?
    Mr. Powelson. Senator Gardner, thank you for the question 
and also thank you for the time you took out of your hectic 
schedule to meet with me.
    This is an issue that, just look at the 2008 timeframe when 
I came on the Commission we had $14 per MM BTU gas and we were 
an import nation. Today we are moving forward toward really 
dominating the international landscape with export opportunity.
    To reiterate what Nominee Chatterjee mentioned, public 
input, stakeholder process is all part of this equation. People 
have to have peace of mind that there's transparency in that 
process, but as I said earlier in comments, you know, we don't 
build pipelines on speculation.
    And in here we are reversing flows from 2008, in less than 
in an 8-1/2 year window, now we have an opportunity to be 
exporting. And exporting, in my view, is a geopolitical, 
creates geopolitical upside for the U.S.
    I had a great opportunity with our former Governor to go to 
Chile, one of our true democracies, and met with Sebastian 
Panira and talked about the need as they're, kind of, 
decarbonizing themselves, they needed natural gas and they 
don't have it in Chile. So these are the opportunities that 
abound if we do it right.
    Senator Gardner. Mr. Powelson, last question. At the state 
and federal authority, we talked about that a little bit in our 
meeting. In the context of wholesale power markets and state 
energy policies, including the state renewable energy 
portfolio, where would you come down on using federal authority 
to preempt state laws?
    Mr. Powelson. That's a great question, Senator, and I will 
respectfully start with the work that's being done right now at 
the FERC because this is a very big issue. I come from an 
organized market and there's organized markets and then there's 
the bilateral markets.
    The first thing that, I think, the FERC is doing 
responsibly is hold the work that Chairman LaFleur did to start 
the conversation around this tech conference and gathering 
feedback from states, generators and other market participants.
    So to answer your question, I am not, I respect states' 
rights but also we, as Federal Energy Regulatory Commissioners, 
if confirmed here, have a responsibility to uphold the Federal 
Power Act and we also have responsibility around the Natural 
Gas Act. And how states develop these policies, if there's an 
inference in the market design, that's where we have to step in 
and make those decisions. But I, today, will tell you that I 
think the FERC has, to its credit, tried to be respectful of 
the state energy policies.
    Senator Gardner. Thank you.
    In general, I think it is important to look at, when we are 
talking about grid reliability issues or if studies are being 
embarked upon, I think it is important that we look at all of 
the experts, whether they are at the National Renewable Energy 
Laboratory or utilities. Take Xcel Energy, they have done a 
remarkable job of integrating various sources, fuel mixes, into 
the grid while maintaining superior reliability.
    So I think it is important to listen to all those voices.
    Thank you, Madam Chair.
    The Chairman. Senator Cortez Masto.
    Senator Cortez Masto. Thank you, Madam Chair.
    Gentlemen, welcome and thank you for your willingness to 
serve and welcome to your family and friends here as well.
    Mr. Brouillette, let me start with you.
    First of all, thank you for coming to visit with me. I 
wanted to follow up on the conversation we were having with 
respect to Yucca Mountain. As you well know, the President's 
full budget provides $120 million to restart licensing 
activities for a Yucca Mountain nuclear waste repository.
    I am opposed to it. My colleague, Senator Heller, is 
opposed to it. The state is opposed to it. Very directly, are 
you in favor of siting the nation's nuclear waste at Yucca 
Mountain?
    Mr. Brouillette. Thank you for the opportunity, Senator. I 
sincerely appreciated our conversation as well.
    I'm in favor of following the law, as we talked about----
    Senator Cortez Masto. Thank you.
    Mr. Brouillette. In your office.
    Senator Cortez Masto. And I appreciate that.
    So let me ask you this. Do you agree that science should 
dictate whether high level nuclear waste should be safely 
stored in a permanent repository?
    Mr. Brouillette. Yes, ma'am, I do.
    Senator Cortez Masto. Nevada has submitted hundreds of 
contentions that objectively demonstrate that the site is 
scientifically unsafe. If the site is declared scientifically 
unsafe, do you agree that nuclear waste should not be stored at 
Yucca Mountain?
    Mr. Brouillette. Yes, ma'am. I'm aware as well that there 
is a review underway. And as we discussed in your office, 
obviously, if the science is so definitive as to show that the 
site is unsafe, I don't think it's in the interest of anyone to 
place nuclear waste and endanger the lives of Americans 
anywhere.
    Senator Cortez Masto. Thank you.
    Mr. Brouillette. But, if the science were to show that it 
is safe, we would be obligated to follow the law.
    Senator Cortez Masto. Do you support the continuation of 
DOE's current work on consent-based siting for storage and 
disposal facilities?
    Mr. Brouillette. I'm sorry, ma'am, I apologize, I didn't 
hear.
    Senator Cortez Masto. Sure.
    Do you support the continuation of DOE's current work on 
consent-based siting for storage and disposal facilities?
    Mr. Brouillette. I think it's important that states have 
input into the process.
    Senator Cortez Masto. I agree. Thank you.
    [Laughter.]
    Listen, I appreciate that. I only have so much time.
    Mr. Brouillette. Sure.
    Senator Cortez Masto. Again, thank you. It was great 
conversation we had.
    Mr. Brouillette. Yes, ma'am.
    Senator Cortez Masto. I really appreciate your candor.
    Mr. Brouillette. Yes, ma'am.
    Senator Cortez Masto. And the conversation.
    Mr. Brouillette. Thank you very much.
    Senator Cortez Masto. Gentlemen, I have not had a chance, 
unfortunately, to meet with you so I have a few questions for 
you as well.
    I am going to just throw these questions out to both of you 
and ask that you respond, if you would.
    In late 2016, FERC issued a proposed rule that would 
eliminate barriers to the participation of renewable energy and 
electric storage in wholesale markets. Will you support 
approval of the proposed rule and what changes, if any, would 
you support before issuing a final rule?
    Mr. Powelson. Senator, thank you for the question.
    And if confirmed, I pledge to you that I will read through 
the record and the comments. As I mentioned to Senator Franken, 
we need to recognize these new resources that are coming into 
the market. So I will keep an open mind to that. I don't want 
to, as you know, as FERC Commissioners we don't pick the 
winners and losers in the market. But we do have a 
responsibility as these technologies are emerging and they're 
going to market, that we have to provide rules and proper 
incentives for these resources to compete in the market.
    I will pledge to you to keep an open mind and continue to 
work constructively so that we're not, again, getting in a 
situation of displacing these resources that are providing, 
believe it or not in my state, a lot of benefits to customers.
    Senator Cortez Masto. Thank you, as well in Nevada. So 
thank you.
    Mr. Chatterjee. Thank you, Senator. I'd like to echo 
Commissioner Powelson's comments.
    While, you know, I can't speak to the matter before the 
Commission, nor prejudge it, I would like to echo the 
conversation I had with Senator Franken. I'm certainly 
supportive of technological innovation, and there's been 
tremendous innovation in this space.
    You know, I'm for competition and access to markets and 
particularly when it's in the consumer's interest. I would most 
certainly judiciously study this issue should I have the 
opportunity to be confirmed and have it come before me.
    Senator Cortez Masto. Thank you.
    Do you both agree that the evidence shows that solar and 
wind power can be reliably integrated into the power grid?
    Mr. Powelson. Well, as a state public utility commissioner, 
I can tell you it's playing a large part in our energy mix, 
whether it's rooftop or utility-based solar.
    Now Pennsylvania only in its RPS, it only counts for 0.5 
percent where if you go across the Delaware River in New Jersey 
is one of the leading states for solar development. So as the 
Senator mentioned, as these cost curves come down, it's 
creating a new opportunity for customers and now we're having a 
discussion at NARUC about community-based solar. Again, keeping 
an open mind to all these resources that are coming into the 
power generation mix is something that I stand behind.
    Senator Cortez Masto. Thank you.
    Mr. Chatterjee. I'd just like to echo the Commissioner's 
comments, you know, safe, affordable and reliable electricity 
delivery is essential. And as these new technologies come 
online I will certainly look to adhere to FERC's core mission 
and ensure that those principles are maintained.
    Senator Cortez Masto. Thank you.
    Madam Chair, I noticed my time is up. I'll submit the rest 
of my questions for the record.
    Thank you.
    The Chairman. I appreciate that very much.
    Senator Heinrich.
    Senator Heinrich. I just want to thank my colleague from 
Nevada, as well as my colleague from Minnesota, for those 
questions. They were very much along the lines of my first 
question for both of the nominees for the FERC.
    I just wanted to mention a story this morning about Tucson 
Electric Power just inking a deal for three cents a kilowatt/
hour. So when we talk about solar PPA and when we talk about 
benefits to consumers and even on a levelized cost basis, we 
are seeing many of the analysis come out with solar and wind 
lower even than combined cycle natural gas, much less things 
like peaking power. That is incredibly important for consumers 
across the country, and I think we are just beginning to be 
able to access what is the tip of the iceberg there.
    I want to switch gears since both of you commented on that 
to transmission. In New Mexico we have enormous supplies of 
wind and solar resources but what we now lack after substantial 
development, particularly in wind in the last year, year and a 
half, is the transmission capacity to deliver that energy to 
other markets because we are net energy exporter. Without new 
investment in transmission these resources will simply not 
fully be developed.
    Do you think the Commission has a role to help facilitate 
investment in new interstate transmission capacity that 
benefits consumers? And do you think the Commission has 
sufficient authority to engage or to encourage investment in a 
new electric transmission capacity or is this an area that 
Congress should be taking another look at?
    Mr. Powelson. Senator, thank you for your question and it 
really is a big issue.
    You know, we first look at our bulk power system and we 
look at the, as I mentioned earlier, these tectonic shifts in 
our generation fleet.
    We're doing this on a long-haul transmission system that's 
carbon 44 tested. And so, there is going to have to be an 
investment made in transmission to get renewables and other 
resources to load centers.
    Senator Heinrich. Right.
    Mr. Powelson. To the credit of the former chair, 
Wellinghoff, and that set of Commissioners, I think we're 
coming up on a six-year anniversary on FERC Order 1000 which 
was envisioned to create this highway system for competitive 
transmission to be built and to recognize these new resources 
coming into the marketplace.
    I still think, as we do a look back on FERC Order 1000, if 
confirmed, one thing I want to do immediately is sit down with 
our regional transmission organizations, our independent system 
operators and kind of see where these bottlenecks are, what's 
working, what's not working, because again, to your credit as a 
state, you guys are putting these, you're making an investment 
around these resources.
    Like I joke about Marcellus shale, I'd love to use all 500 
trillion cubic feet of natural gas. It's just not the reality. 
We've got to move these molecules and we've got to move these 
renewable electrons as well.
    So that's, kind of, where I look at the issue. I pledge to 
you, if confirmed, that we, you know, I would first want to get 
educated, but more importantly see what's working----
    Senator Heinrich. You see it as a priority.
    Mr. Powelson. I do. I do.
    Senator Heinrich. Mr. Chatterjee, do you want to add to 
that?
    Mr. Chatterjee. Yes, just to build on what Commissioner 
Powelson laid out, I just want to echo and stress the 
importance of transmission.
    Whatever our generation mix, power delivery will rely on 
continued maintenance of a robust, reliable grid. I agree with 
you that we need continued investment, and we need to make sure 
that the return on equity is sufficient to achieve that goal of 
that needed investment. I would certainly be supportive. And it 
would be something, should I be fortunate enough to be 
confirmed, that I would make a priority.
    Senator Heinrich. I want to thank you both for your answers 
on that, and I want to shift gear to our nominee for the Deputy 
Secretary position.
    I want to start with the most important question which is 
how do I say your name correctly because I was not here at the 
beginning.
    Mr. Brouillette. It's Brouillette, sir.
    Senator Heinrich. Okay, Brouillette.
    I am really pleased to see the Office of Technology 
Transitions trying some new approaches to promote tech transfer 
at our DOE labs. We had the chance to talk a little bit about 
that in my office yesterday.
    One example is a really innovative voucher program that 
pairs small businesses with scientists and engineers at those 
labs and helps get them up to speed on commercialization of 
technologies. How familiar are you with the program? And do you 
think it is a good model for moving new technologies from the 
labs into the commercial sector?
    Mr. Brouillette. Senator, thank you, again, for the 
opportunity to chat yesterday. I really enjoyed our 
conversation.
    I am not an expert in the program. I am vaguely familiar 
with it. I have studied it at a high level.
    I can tell you that I'm firmly committed to technology 
transfer within the Department of Energy and the labs, 
generally. Anything that we can do to move these great ideas 
from the lab to the marketplace is going to benefit all 
Americans.
    So I will strongly support and, if confirmed, I'll look 
forward to working with you to advance those issues.
    Senator Heinrich. Thank you, Mr. Brouillette.
    Mr. Brouillette. Thank you, sir.
    The Chairman. Thank you, Senator Heinrich.
    Senator Cassidy.
    Senator Cassidy. Mr. Brouillette, I know how to pronounce 
your name, you know what I am saying.
    [Laughter.]
    It is good to see my constituent back there, and whatever 
we can do to serve you, please let us know. If you want a tour 
of the Capitol, let us know. We are glad to have folks visit.
    Mr. Brouillette. Thank you, sir.
    Senator Cassidy. I also note that when you were naming your 
nine children, you actually had their names listed.
    Mr. Brouillette. That's important.
    Senator Cassidy. You did not want to skip a name, right?
    Mr. Brouillette. That's important.
    Senator Cassidy. Yes, nine gets you there. Yes, I hope they 
are LSU fans.
    [Laughter.]
    So anyway, just to go there.
    A couple things.
    Last year the Department of Energy issued its first 
conditional loan commitment for an advanced fossil fuel project 
at the Lake Charles methanol plant. This $2 billion commitment 
matched with $1.9 billion in private equity capital and taking 
petroleum coke, we are both familiar with that, kind of an end 
product of the refinement of oil into a methanol facility.
    For all the folks who have been yelling in our hearings, it 
actually takes a by-product of the central products but does 
something with it capturing the CO2, using it for enhanced oil 
recovery. Again, so for those yelling, it should achieve a goal 
they want which would be to decrease emissions.
    So my question is for you. The President's budget proposes 
to eliminate the Title 17 program, canceling the remaining loan 
volume authority including that which would include this.
    Now aside from environmental and what do we do with pet 
coke, it creates about 1,000 construction jobs and 200 
permanent jobs in my state but also jobs in Texas for enhanced 
oil recovery which again, is what we should be doing worldwide, 
energy security, economic development, et cetera.
    So, I guess this is, kind of, a beg to answer question but 
assuming the projects continue to prove its creditworthiness, 
will you work with me to advance this unique energy project 
through the appropriate process?
    Mr. Brouillette. The short answer, sir, is yes. I look 
forward to visiting with you further about that, if I'm 
confirmed.
    As we mentioned earlier, or as I mentioned earlier in the 
Committee, to the Committee, I was not part of the budget 
process and I understand full well that this is the President's 
request to the Congress, but at the end of the day the Congress 
will work, both the House and the Senate, to determine the 
final appropriate numbers for these programs.
    Once you do that and once you complete your process, I will 
certainly execute to the letter of the law.
    Senator Cassidy. Now let me just ask your attitude because 
my goal, my idea, is that you have this, kind of, large-scale, 
first-of-kind project and the equity markets really do not 
quite know how to price it.
    As long as the federal taxpayer gets a return on her 
investment, we have got to protect the federal taxpayer, but it 
is a way to, kind of, show that you can do it, taking it to 
scale. Again, doing a lot of positive things. Would you agree 
with that or, philosophically saying?
    Mr. Brouillette. I do agree that on occasion it is 
appropriate for the government to step in and provide that type 
of assistance. I think you're referring to some of the loan 
programs and perhaps the ARPA-E program within the Department 
of Energy.
    I would like the opportunity, sir, if confirmed, to get 
there and to learn more about the structure of those two 
agencies, the structure of those two programs. Coming from a 
finance background or financial institution, I think it's 
important that they have proper underwriting and they have 
proper standards around those loans and around those grants. We 
just need to understand what the risk portfolio represents.
    Senator Cassidy. Sounds great.
    Thank you.
    Mr. Brouillette. So I will look forward to working with 
you, if confirmed.
    Senator Cassidy. Thank you.
    Mr. Powelson, obviously, the Marcellus shale has done 
fantastic in Pennsylvania. It has created an incredible number 
of jobs. I noticed, speaking in my home state, a lot of folks 
with French last names have moved to Pennsylvania to help teach 
the Pennsylvanians how to develop that gas. That said, what 
impact has the increased use of natural gas in your power grid 
had upon greenhouse gas emissions in your state?
    Mr. Powelson. Senator Cassidy, thank you for your question 
and I appreciate the opportunity to have met with you on this 
topic.
    First of all, we are an open border state, so we love 
having raging Cajuns come into the Commonwealth of 
Pennsylvania.
    [Laughter.]
    Senator Cassidy. It has upgraded your food, I will tell you 
that.
    Mr. Powelson. It certainly has.
    [Laughter.]
    You mentioned Marcellus development, you know, this has 
been an economic, if I can use the word, game changer, for 
Pennsylvania, but it's hit on all levels.
    So the climate piece. Pennsylvania has seen a 32 percent 
reduction in NOx, SOx and mercury.
    Senator Cassidy. I only have about 30 seconds left.
    Mr. Powelson. Yes.
    Senator Cassidy. And you attribute that to the transition 
to natural gas?
    Mr. Powelson. I think natural gas is a huge driver in that. 
I won't discount, though, renewables.
    Senator Cassidy. But as a percent of your overall energy 
generation, what percent does renewables? What percent is 
natural gas?
    Mr. Powelson. Sir, the renewable piece is less than eight 
percent of the energy mix and nuclear. Pennsylvania is the 
second largest nuclear production----
    Senator Cassidy. And your net gas is what percent?
    Mr. Powelson. Gas is upwards to about 30 percent of the 
energy mix now.
    Senator Cassidy. What we have observed is that if we can 
export this gas to other countries, replacing coal in their 
fuel mix with our natural gas, we create jobs here, but we also 
lower their greenhouse gas emissions.
    Clearly FERC will be instrumental in that because you all 
are going to permit those LNG export terminals, correct?
    Mr. Powelson. Well, again, on a case-by-case basis with 
thorough review and public input? Yes, I think we'll come to 
conclusions on these projects.
    Senator Cassidy. I will point out that I think you 
mentioned earlier, or somebody did, that we are now exporting 
gas to Chile and they are trying to use natural gas again to 
improve their greenhouse gas emission profile. So for all those 
concerned with greenhouse gas emissions, natural gas is the way 
to go.
    That said, I yield back.
    Thank you.
    The Chairman. Thank you, Senator Cassidy.
    Senator Duckworth.
    Senator Duckworth. Thank you, Madam Chairwoman.
    Gentlemen, I was deeply alarmed late last year by reports 
that the Trump Administration transition team was collecting 
names of career civil servants at DOE who worked on climate 
change matters.
    My concerns only increased when subsequent reports emerged 
that the Secretary of Energy was actively working to manipulate 
DOE's research efforts to produce studies that advance a non-
scientific partisan agenda.
    Mr. Brouillette, do you think it is appropriate for the 
Department of Energy to conduct a witch hunt against scientists 
who have worked on climate change? I know you were not at the 
Department when some of this happened, but do you support that 
type of activity or will you disavow it now?
    Mr. Brouillette. Thank you, Senator, I appreciate the 
question.
    I, obviously, disavow any witch hunt. That is not our 
intention. I am not familiar with the activities of the 
Department. I am aware that a letter was sent to federal 
employees within the building. I read the press accounts of 
that and I did see Secretary Perry's testimony to that effect. 
I'm aware that I don't think he asked for that. I can assure 
you that if I am confirmed, that is not something I will 
pursue.
    Senator Duckworth. Thank you.
    As the Chief Operating Officer of the Department, will you 
protect career civil servants who are doing important 
scientific research from political interference and politically 
motivated budget cuts?
    Mr. Brouillette. Yes.
    Senator Duckworth. Thank you and thank you also for your 
service.
    Let me just say it speaks well of you that you come to this 
from USAA--as many of my fellow veterans and I call it, the 
``Mother Ship.''
    [Laughter.]
    Senator Duckworth. You certainly know customer service, so 
thank you for----
    Mr. Brouillette. Thank you for that and thank you for your 
service as well.
    Senator Duckworth. Thank you.
    This next question is for Mr. Chatterjee and Mr. Powelson. 
Approximately 30 states have passed renewable portfolio 
standards and multiple states, including Illinois, have adopted 
policies who support existing nuclear power plants. We are the 
number one.
    [Laughter.]
    States are enacting these policies for a wide variety of 
reasons, including energy diversity, environmental benefits and 
economic development. These policies were passed by state 
legislatures and I know this was discussed, but do you agree 
that state legislature is the appropriate place for these 
policies to be decided? As FERC Commissioners, would you act to 
preempt these laws as some have suggested?
    Mr. Powelson. Senator, thank you for your question.
    And this is an issue that is probably coming before the 
Commission, so I don't want to prejudge it but your question 
about--I'm a states' rights individual.
    Senator Duckworth. Great.
    Mr. Powelson. And I respect, I'm familiar with what 
Governor Rauner signed into law to support those nuclear 
plants.
    If we're talking about climate, I will say at a high level, 
nuclear power is part of that energy mix. We're going to need 
it.
    So as this comes our way, I just pledge to you that I will 
keep an open mind. I always come from the idea or the 
philosophy of do no harm to the states. We should--we don't 
want people losing jobs, and we want these units to run because 
we want the clean energy resource, the base load resource.
    So again, looking at the technical conference that 
Chairwoman LaFleur put together, I thought was a good first 
step. And then we'll, obviously, have a discussion, I think, as 
a FERC Commission on what the next iteration or the 
conversation is at the higher policy level.
    Senator Duckworth. Well, we are deeply concerned in 
Illinois that there would be any moves that would prohibit the 
state from being able to provide clean energy incentives to our 
nuclear power plants which would then cause them to have to 
shut down and we would lose those jobs. Yes?
    Mr. Chatterjee. Thank you for the question, Senator.
    As I stated earlier, I believe in states' rights. I believe 
in local communities making these determinations. I also 
believe that to ensure safe, affordable and reliable 
electricity delivery, we need fuel diversity. And I understand 
that there are some very complex questions around how to 
maintain that fuel diversity with some of the market challenges 
that we face.
    To echo Commissioner Powelson, I understand FERC had a 
technical conference on this earlier this month and, should I 
be fortunate enough to be confirmed, I know this is one of the 
critical matters that will come before the Commission and I 
will certainly look very closely at it and have an open mind as 
I go into it.
    Senator Duckworth. Thank you.
    This next question is for all three witnesses. Do you agree 
that human activities are warming the planet or will you 
advance the Trump Administration position that mandates climate 
change is not real or a problem deserving of attention? Which 
one is it? I believe that this will affect your role.
    Mr. Powelson. Senator, thank you for the question.
    I am not a climate denier, so I recognize that there's 
human activity. CO2 emissions is a big, very big, public policy 
discussion and I will let you know that in my state, as I've 
mentioned to you, we're very proud of where we're going with 
our energy policy and it recognizes reductions in CO2.
    I will just let you know, one statistic which is amazing 
about the U.S. right now, for the first time since 1970 in this 
country, the U.S. power sector had lower CO2 emissions than the 
transportation sector. So that tells me we're seeing market-
based outcomes toward decarbonization, and I think it's a good 
thing for the environment.
    Senator Duckworth. Or from the Clean Power Plan which the 
Trump Administration is now actively working to reverse.
    Mr. Chatterjee. Senator, to your question, I think it is 
important to look at, should I be fortunate to be confirmed, 
what role I would play at FERC.
    FERC's instrumental role is in overseeing reliability. I 
think that any policy put forward by Congress or the 
Administration that would seek to mitigate carbon emissions 
would have to ensure that it not have a negative impact on 
reliability. And I think it's key for public acceptance that 
there not be a negative impact on reliability.
    And should those policies be put forward, I would certainly 
work very closely with proponents of the policy to ensure that 
that reliability impact not, that there not be a negative 
impact of reliability.
    Senator Duckworth. Thank you.
    Mr. Brouillette?
    Mr. Brouillette. Quite simply, Senator, the climate is 
changing, and we're all living here so we must have some 
impact.
    I look forward to working with you, if confirmed, to find 
out what we might do with the DOE labs to help us understand 
the impact more clearly and perhaps in the future, perhaps 
balance some of the actions that we take.
    Senator Duckworth. Thank you.
    Madam Chairwoman, thank you, you have been very generous.
    The Chairman. Senator Risch, you came in next.
    Senator Risch. Thank you very much, Madam Chairman.
    First of all, let me say that I think all three of these 
nominees we have in front of us are highly qualified people, 
and I think the President should be commended for his choices 
in these areas. I want to particularly thank you for being 
willing to take on this public service.
    I am particularly grateful to have Mr. Brouillette where he 
is. He has, on a very parochial basis, I know you would never 
do this, Madam Chairman, but on a very parochial basis, he has 
an in-depth understanding of what happens at the Idaho National 
Laboratory. He has a long history there. I look forward to 
working with him on some of the challenges we have there and 
also in cultivating the great work that the lab does for the 
American people and really for the world in the areas they work 
in.
    So----
    Mr. Brouillette. Thank you, Senator.
    Senator Risch. Thank you, again, all of you, for being 
willing to serve.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator.
    Senator Flake.
    Senator Flake. Thank you.
    Sorry I was not here for much of the testimony, but I 
appreciate the meeting in my office with Mr. Brouillette.
    I wanted to talk about WAPA, the Western Area Power 
Association. As you know, it is the power marketing 
administration that falls under your purview at DOE, and we 
have been working to bring some clarity and transparency that 
is lacking.
    We believe that WAPA, now Secretary Perry, committed to 
ensuing transparency there, and you and I discussed that 
earlier this week in my office. But you described, at that 
point, your role as running the day-to-day operations at the 
Department. How will that impact and what do you plan to do 
with regards to PMAs?
    Mr. Brouillette. Well, sir, I think--and thank you as well 
for the opportunity to meet with you earlier this week. I 
really appreciated that.
    My role, as the Deputy Secretary of Energy, should I be 
confirmed, is to be the Chief Operating Officer, it is to 
operate the agency from day-to-day, and that would include 
compliance with the federal law. It would also include, I'm 
sorry, I misspoke there, with the rules and regulations of the 
Department and included in that or complies with Whistle Blower 
Acts and the rules and regulations of the Department.
    I can commit to you that we will work together, if 
confirmed, to increase the transparency at WAPA, to fix some of 
the issues that we know or I've read about in the paper and to 
ensure that there is strict compliance with the Whistle Blower 
Acts.
    Senator Flake. Thank you.
    There is a long history of American development and 
innovation in energy technologies, as we all know, and the 
Department's research programs have played an important role in 
this area. Historically, these research programs have had 
greatest impact when they were focused on clear and specific 
goals, like when the world's first nuclear plant was developed 
in under a year. Goals can also focus resources in times of 
declining budgets and tight budgets as we face today.
    How do you think that DOE research programs can benefit by 
establishing specific goals on such things as advanced nuclear 
reactors or grid scale storage that can take advantage of the 
intermittent power generation that we have today, particularly 
with renewables?
    Mr. Brouillette. I think renewables are an important 
component of where we're going to be, not only five years from 
now, but tomorrow. It's moving very, very fast, as we mentioned 
earlier in other testimony on the Committee, and the base load, 
other issues are changing very, very rapidly within the energy 
space.
    With regard to the labs, if confirmed I look forward to 
working with them to ensure that their technology moves to 
market quicker. I'm going to, hopefully, take some of the 
business experience that I've had and define very measurable, 
or at least put together very measurable metrics that we can 
use to gauge their performance. That's something, I think, 
they've done pretty well in the past, and I look forward to 
working with them to improve that.
    Senator Flake. Well, great. Obviously we want to take 
advantage of the intermittent generation, particularly 
renewables, but without grid scale storage at this point, we 
want carbon-free base load and a lot of that comes with 
nuclear.
    Mr. Brouillette. It does.
    Senator Flake. But until we can have the advanced 
technologies that allow these plants to throttle down in the 
appropriate times, then we are not going to fully take 
advantage here.
    Let me talk about the licensing process for a minute with 
the other two gentlemen. Nuclear power plants are critical, 
obviously, as we said, and not emitting base load generation.
    How do you envision FERC addressing the current market 
issues of maintaining reliability and recognizing the states' 
interests in supporting carbon-free generation while 
maintaining a reliable, carbon-free generation with a reliable 
portfolio without cost-effective, as I said, commercially 
available grid scale storage at this point?
    Mr. Powelson. Senator, thank you for your question. If 
confirmed, I would, obviously, get myself immersed in what took 
place in the first week of May here with the technical 
conference.
    We all know at a macro level what's going on. I mean, a lot 
of these nuclear units are being displaced economically in 
markets because of, what I considered the Pennsylvania 
phenomena of $1.92 per MM BTU gas coming out of the well head. 
And in my state what's happening is these stand-alone reactors 
are under tremendous pressure to clear in the market construct.
    What we're also seeing though is nuclear units that are 
going through relicensing projects and that's a good thing, but 
we've only built three new nuclear units right now in the 
country. And I remember sitting in a room with one of your 
colleagues, Senator Lamar Alexander, when we were talking in 
2008 about the nuclear renaissance.
    And so today, three new reactors. We are seeing these 
uprates take place at existing reactors, but it seems to be 
these stand-alone reactors are under tremendous pressure 
because of cheap natural gas and honestly there's issues with 
wind, negative wind, pricing at night creating what was once 
considered a too-cheap-to-meter unit of power production being 
under siege by the integration of new renewables into the grid.
    So, just to answer your question, I think it's going to be 
critically important for the FERC to, kind of, look at all the 
moving parts of this public policy issue and figure out a way, 
probably work with the NRC and other groups, DOE, through the 
grid study, how do we keep these things viable.
    Senator Flake. Great.
    Mr. Chatterjee. Just quickly, to that Senator, I strongly 
believe in the need for fuel diversity.
    We need it all. We need nukes, we need renewables, we need 
hydro, we need coal, we need gas, and we need these innovative 
technologies.
    Senator Flake. Well, thank you.
    A post note, we need a part of DOE to make sure that we 
focus our resources on research to get to these new modular, 
smaller units that can throttle down and take advantage, as I 
said, of intermittent generation.
    Then on the licensing side with FERC, we really need to 
move more quickly than we have in the past to bring these new 
technologies to the market.
    Thank you.
    The Chairman. Thank you, Senator Flake.
    Senator Barrasso and then Senator King.
    Senator Barrasso. Thank you very much, Madam Chairman.
    Congratulations to all of you.
    Mr. Brouillette, I would like to ask you about foreign 
control of American businesses. It was reported in the Wall 
Street Journal last week that the state-owned, Russian oil 
company may be in a position to take over U.S. energy assets of 
Citgo, if Citgo's parent company defaults on its debt. Its 
energy assets in the United States include refineries, 
pipelines, numerous petroleum platforms, foreign investment in 
the U.S., especially by an adversary like Russia has national 
security implications.
    So the Committee on Foreign Investment in the United States 
(CFIUS) is charged with, as you know, reviewing transactions 
that could result in control of a U.S. business by a foreign 
entity. CFIUS is authorized to block transactions or to impose 
conditions on a transaction in order to mitigate any threat to 
our nation's security. The Secretary of Energy and by 
delegation, the Deputy Secretary, is a member of CFIUS. The 
Russia/Citgo deal is deeply concerning to me because it would 
place critical U.S. energy assets under the control of a 
foreign adversary.
    Can you just share with us some of your thoughts on this 
and what reassurance you may want to be able to give me and to 
give all of us in terms of what steps you will take to ensure 
that the Russia/Citgo deal does not pose a threat to our 
nation's security?
    Mr. Brouillette. Thank you, Senator. Thank you for the 
question.
    I am familiar with the CFIUS process. Unfortunately, I am 
not familiar with the details around this particular deal. And 
if confirmed, I can commit to you to work closely with you.
    But respectfully, sir, I would like to take that question 
for the record, so I would have the opportunity to learn more 
about it before I make a public comment about it.
    Senator Barrasso. We will be happy to get you that report 
that came out in the Wall Street Journal last week.
    Mr. Brouillette. Thank you, sir.
    Senator Barrasso. Thank you.
    For the other two nominees, and we can start with Mr. 
Powelson and then I will ask you, Mr. Chatterjee, to jump in.
    In 1978 Congress passed the Public Utility Regulation 
Policies Act, commonly known as PURPA. It was a response to 
skyrocketing oil prices at the time caused by the oil embargo 
of 1973. The goal was to reduce the use of foreign oil in power 
generation, to provide the U.S. with greater energy 
independence. To achieve that goal, this legislation required 
all electric utilities, including municipal utilities and rural 
electric cooperatives, to purchase all electric power made 
available from renewable power generation resources known as 
qualifying facilities.
    Well, times have changed since 1978. The energy industry 
has experienced revolutionary changes in fuel supply, in 
production and in regulation and in particular, renewable 
resource generation is now increased substantially. About 15 
percent of all U.S. electrical generation is from renewable 
sources. The oil, on the other hand, has decreased from 16 
percent of U.S. electric generation back when this law was 
passed to less than one percent today.
    Due to these revolutionary changes, some have called on 
FERC to reform its regulations with regard to PURPA and to 
reflect current industry conditions. Could both of you weigh in 
on what changes you might plan to make to FERC's PURPA 
regulations?
    Mr. Powelson. Senator, thank you for the question.
    I think you teed it up nicely. I mean, PURPA is a 1978 
vintage document. It was addressing a scarcity issue and here 
we are today, as I mentioned in prior comments, we're leaning 
toward energy independence and the generation mix has changed 
dramatically. I'm aware that the FERC has sought or has 
instituted a technical conference months back, or maybe a year 
ago, seeking comment.
    I come from a state that we very much believe in what we 
call ``least cost procurement'' because again, on the consumer 
protection side we want to, you know, not put our thumb on the 
scale, but we want those resources, the least cost, to provide 
that benefit to the consumer.
    So I would pledge to you, if confirmed, I mean, I say this 
respectfully, a congressional review of PURPA, a PURPA 2.0 
doctrine may be part of a potential energy bill. But for now, I 
think, if confirmed, I would do my part to look at the record 
and see how, what's working in PURPA and what's not.
    Senator Barrasso. Mr. Chatterjee?
    Mr. Chatterjee. Thank you for the question, Senator.
    To echo what Commissioner Powelson says, I understand that 
FERC did undertake a technical conference on this matter within 
the last year. Should I be fortunate enough to be confirmed, I 
will certainly work with my colleagues to review the findings 
of that conference.
    But I will say that any major changes to PURPA would be 
made by Congress. And while you have my assurance I would work 
very seriously on these issues, should I be confirmed, I think 
any major changes need to come from this body and not from 
FERC.
    Senator Barrasso. Thank you very much.
    Thank you, Madam Chairman.
    The Chairman. Thank you, Senator Barrasso.
    Senator King.
    Senator King. Thank you, Madam Chair.
    Welcome, gentlemen, thank you for your willingness to serve 
our country.
    Mr. Brouillette, I am very concerned about the depth of 
cuts to the Department of Energy that are proposed in the 
President's budget. I understand that you are not a member of 
the Administration yet and that you will, I presume, honor the 
decisions made here in the Congress in terms of what those 
budgets ultimately look like.
    Here is what we are talking about: ARPA-E, Advanced 
Research Projects Agency, eliminated, gone; Advanced Technology 
Vehicle Manufacturing, gone; research program cuts; Office of 
Science, 17 percent cut; Office of Energy Efficiency and 
Renewable Energy, cut by 70 percent; and this is the one that 
really bothers me, Office of Electricity Delivery and Energy 
Reliability, cut by 48 percent.
    We had a hearing in this room about two weeks ago about the 
grave risk of disruption of our grid by malign actors via 
cyber. To be cutting the Office of Electricity Delivery and 
Energy Reliability by almost 50 percent is irresponsible in the 
extreme.
    So also fossil fuel energy research and development, cut by 
58 percent.
    These cuts are absolutely unacceptable, and they are 
cutting in exactly the wrong place. It was the research funds 
from the Department of Energy that helped give us the fracking 
revolution that has revolutionized the energy situation in this 
country, and to cut these kinds of funds so dramatically is 
just shortsighted.
    Now I expect, I hope, what you are going to tell me is you 
will enforce the law, you will implement the law and you will, 
if these funds are re-appropriated by this Congress, you will 
steward them appropriately according to the instructions of the 
Congress. Is that correct?
    Mr. Brouillette. Yes, sir, that's exactly what I'm going to 
tell you.
    Senator King. Thank you.
    [Laughter.]
    Thank you for finding a question buried in there.
    [Laughter.]
    But----
    Mr. Brouillette. Yes, sir.
    Senator King. I am not making a speech here, I am sincerely 
worried about this. I am on the Intelligence and Armed Services 
Committees and I can tell you our grid is a target.
    Mr. Brouillette. Yes, sir.
    Senator King. And to be cutting funds that involve grid 
reliability is just not prudent in any way, shape or form.
    I guess for our FERC nominees, I understand there has 
already been--and I apologize for coming in and out. I have 
three hearings this morning at the same time, minor hearings, 
Armed Services and Budget, so I do apologize. But I hope that 
FERC will look at the distribution system and look at the 
issues involved with distributed energy, demand response 
because, I think, that is an important part of the future of 
our energy system and we have to find a way to value it 
appropriately and not allow the development of, what I believe, 
is a national security development by decentralizing the grid 
to be artificially constrained by arbitrary fees and costs that 
are designed not to reflect true cost, but are designed to 
impede the development of this important part of our energy 
sector.
    Mr. Powelson, your thoughts?
    Mr. Powelson. Well, thank you, Senator, for the question. 
And again, I appreciated the opportunity to meet with you and 
your staff.
    This is really where we're headed as a country with 
recognizing this diverse energy portfolio and states are 
driving that. So as you and I talked, I mean, combined heat and 
power systems, demand side management tools for residential 
consumers and industrial customers is really a good thing and 
it's part of this new energy mix.
    And I can pledge to you that, you know, look at our 
Pennsylvania experience. I mentioned earlier in the hearing, 
utilities have been close to $1 billion on these programs with 
a net value to customers or what we call a total resource cost 
value of $1.8 billion in benefit to consumers.
    Senator King. Pretty good return on investment.
    Mr. Powelson. That's a pretty good return, you're right. 
And so, if confirmed, I will pledge to you my continued support 
for distributed energy resources and the value they play.
    And I want to commend the former FERC Chairman, Norman Bay. 
One of the things that he did was to start a docket around fast 
start resources and creating a value food chain for those 
resources in the markets.
    I told you earlier, my experience with Hurricane Sandy and 
how these resources played a critical role in grid resiliency 
is so important. You mentioned cyber as well. So these are all 
part of this new, what I consider, 21st century landscape.
    Senator King. Finally, Mr. Brouillette, the Department has, 
particularly through the labs, established some important 
relationships to us in Maine at our University of Maine with 
Oak Ridge, for example. I believe those labs are national 
treasures and should be protected and preserved. I also hope 
that you will commit to me to maintain those relationships. I 
would like to invite you to Maine to visit the University of 
Maine composites lab and see the work that they are doing with 
Oak Ridge which is really extraordinary.
    Mr. Brouillette. Yes, sir.
    I'd be honored. If confirmed, I'd be honored to join you in 
Maine. And yes, I will continue to be an advocate.
    Senator King. I look forward to introducing you to some of 
your kinfolk in the St. John family.
    [Laughter.]
    Mr. Brouillette. I look forward to it as well, sir. Thank 
you.
    Senator King. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator King.
    Gentlemen, thank you for being here this morning. I 
certainly have additional questions, but like Senator King, I 
have another Committee hearing that I am expected to attend. I 
know that many of our members will have questions, and we ask 
that they be submitted for the record by the close of business 
today. We would anticipate and expect your prompt responses.
    As I indicated in my initial statement this morning, my 
hope is to be able to advance your names quickly, along with 
that of Mr. Bernhardt, so that we can process these nominees 
for the FERC and DOE and allow for business to proceed.
    We thank you for your willingness to serve. We thank your 
families that support you every day and to the children that 
have been here, you have been extraordinarily well behaved. I 
think you set a fine example for grownups, so we appreciate 
that a great deal.
    [Laughter.]
    With that, ladies and gentlemen, we stand adjourned.
    [Whereupon, at 11:52 a.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




</pre></body></html>
